<html>
<title> - KEEPING THE BORDER SECURE: EXAMINING POTENTIAL THREATS POSED BY CROSS-BORDER TRUCKING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       KEEPING THE BORDER SECURE:
                      EXAMINING POTENTIAL THREATS
                     POSED BY CROSS-BORDER TRUCKING

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON TRANSPORTATION
                      SECURITY AND INFRASTRUCTURE
                               PROTECTION

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 19, 2007

                               __________

                           Serial No. 110-50

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
48-924                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012009


                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON TRANSPORTATION SECURITY AND INFRASTRUCTURE PROTECTION

                 SHEILA JACKSON LEE, Texas, Chairwoman

EDWARD J. MARKEY, Massachusetts      DANIEL E. LUNGREN, California
PETER A. DeFAZIO, Oregon             GINNY BROWN-WAITE, Florida
ELEANOR HOLMES NORTON, District of   MARSHA BLACKBURN, Tennessee
Columbia                             GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York           PETER T. KING, New York (Ex 
ED PERLMUTTER, Colorado              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                      Mathew Washington, Director

                          Erin Daste, Counsel

                   Natalie Nixon, Deputy Chief Clerk

                 Coley O'Brien, Minority Senior Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Chairwoman, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  From the State of California, Ranking Member, Subcommittee on 
  Transportation Security and Infrastructure Protection..........     3
The Honorable Henry Cuellar, a Representative in Congress From 
  the State of Texas.............................................    25
The Honorable Peter A. DeFazio, a Representative in Congress From 
  the State of Oregon............................................    19
The Honorable Nita M. Lowey, a Representative in Congress From 
  the State of New York..........................................    44
The Honorable Ginny Brown-Waite, a Representative in congress 
  From the State of Florida......................................    22

                               Witnesses
                                Panel I

Mr. Bill Arrington, General Manager, Highway and Motor Carrier 
  Division, Transportation Security Administration:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Greg Olsavsky, Director, Cargo Control, U.S. Customs and 
  Border Protection:
  Oral Statement.................................................    10
  Prepared Statement.............................................    12

                                Panel II

Mr. Stephen Russell, Chairman and CEO, Celadon Group, Inc., On 
  behalf of the American Trucking Association:
  Oral Statement.................................................    35
  Prepared Statement.............................................    36
The Honorable Raul G. Salinas, Mayor, Laredo, Texas:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28
Mr. Gregg M. Ward, Vice President, Detroit-windsor Truck Ferry:
  Oral Statement.................................................    31
  Prepared Statement.............................................    31

                               Appendixes

   I.  C-TPAT Highway Carrier Security Criteria..................    53
  II.  May Salinas' Law Enforcement History......................    59


                       KEEPING THE BORDER SECURE:
                      EXAMINING POTENTIAL THREATS
                     POSED BY CROSS-BORDER TRUCKING

                              ----------                              


                         Tuesday, June 19, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
Subcommittee on Transportation Security and Infrastructure 
                                                Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:38 p.m., in 
room 1539, Longworth House Office Building, Hon. Sheila Jackson 
Lee [chairwoman of the subcommittee] presiding.
    Present: Representatives Jackson Lee, DeFazio, Clarke, 
Cuellar, Lungren, and Brown-Waite.
    Ms. Jackson Lee. [Presiding.] The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
what the Department of Homeland Security, specifically TSA and 
CBP, is doing to keep and protect our citizens from trucks that 
could possibly threaten our nation.
    However, before I begin, I would like to ask for unanimous 
consent that Mr. Cuellar, a member of the full committee, be 
allowed to sit and question the panel during today's hearing.
    Mr. Lungren. Is he going to be sitting at the far end?
    Ms. Jackson Lee. He will be sitting in a very honored seat.
    [Laughter.]
    Hearing no objection, so ordered.
    Thank you, Mr. Cuellar, and welcome.
    I yield myself 5 minutes to provide an opening statement.
    I would like to take this opportunity to thank all of you 
for joining us this afternoon, so that we can begin our 
exploration of a topic on border security.
    I am very grateful that this committee, building on 
certainly past leadership, has been enormously active, the full 
committee, recognizing our challenges after 9/11. And it is our 
commitment to really not leave any stone unturned.
    I always am reminded of the fact, with all the respect I 
have for so many committees of jurisdiction and with 
responsibilities of oversight, if, by chance, there is a tragic 
incident of terrorism, they will be looking not to a number of 
other committees, but they will be looking to the Homeland 
Security Department and the Homeland Security Committee of the 
United States House of Representatives and its respective 
counterpart in the Senate.
    We have the ultimate and bottom-line responsibility of 
dealing with security. And that means every nuance, every item 
that is conspicuous and all that are not conspicuous.
    Some may ask the question, how does border security relate 
to transportation security? And that is why we are here today, 
because every nuance, every non-obvious aspect of security we 
must answer the question.
    Well, here are some facts that we all should be aware of, 
for example, the annual number of truck crossings remains above 
4 million.
    The majority of our focus regarding the cross-border 
trucking issue has been on the safety implications. Little has 
been done to ensure that cross-border trucking is not an easy 
conduit for terrorists to enter the United States and use those 
vehicles to commit acts of violence against Americans.
    It is important to understand that it is a possibility. My 
colleague, the ranking member, has recognized that in 
legislation that he has put forward regarding trucking.
    The security implications of a cross-border trucking 
program, from a homeland security perspective, are four-fold. 
In order to be secure, we need to know the driver, the truck, 
the cargo and the destination. Further, we must be concerned 
with the whereabouts of the driver once he is through the 
border and driving on our national highways.
    The vulnerability created by allowing foreign carriers to 
operate freely in the U.S. cannot be overstated. Increasingly, 
foreign terrorist organizations are getting a foothold in Latin 
America and exploiting our porous border with Canada to gain 
entry into the United States.
    But speaking about it does not provide solutions. We must 
develop friendships: our continued friendship in Canada but 
increase friendships in South and Central America.
    Mayor Salinas knows about those friendships. That is why I 
am gratified that he accepted the invitation of this committee 
to come and to share how we can combine the needs of our 
southern-border neighbors and our American friends who are on 
the American side of the border.
    How do we approach security and friendship at the same 
time?
    It is well-known that once inside a truck, regardless of 
what materials he or she may be carrying, a terrorist will have 
many tools available to him to harm Americans. We need to 
understand what methods TSA and CBP are putting in place to 
ensure that, when our borders are finally open to foreign 
carriers in a large way, we have a process to find out who they 
are, what they are carrying and where they are going.
    We want to make sure that we have all of the information so 
that we have a productive opportunity for the exchange that we 
are used to, as it relates to people and goods. It is important 
that we do so. As we do this, we will be able to address the 
larger question of the relationships between our borders and 
those on our borders.
    In addition, we want to make sure that carriers actually 
arrive at their destination. This is a two-prong process, and 
we hope to see that CBP and TSA are working in lockstep to 
check drivers at the border and then track them once they are 
on our nation's highways.
    We would like to know how effective you have been and what 
resources you need to be more effective.
    Because the nation's highway transportation system is 
robust and interconnected--including 3.8 million miles of 
roadways, 582,000 bridges, and 54 tunnels over 500 meters in 
length--this work has to be done.
    The highway system supports 86 percent of the personal 
travel of Americans and moves 80 percent of the freight, based 
on value, which is projected to double by 2020. This system is 
the backbone of our nation, and all Americans use this system. 
An attack on this system could seriously hamper commerce.
    We need to make sure that foreign carriers are just as 
secure as our domestic carriers, and this process starts at the 
border. In the wake of September 11th, we have learned that we 
must think outside the box. The committee must continue to 
think about the impossible.
    This is a security issue that we must make sure is not 
exploited for the purposes of carrying out a terrorist attack. 
And I believe that if we continue to use Band-Aid approaches or 
turn a blind eye, it is only a matter of time before we will 
once again regret that we did not act sooner.
    As members of Congress and, more specifically, as members 
of the Homeland Security Committee, we have a responsibility to 
make sure our highways our secure. We are at a crossroads where 
we must take action to find out what is the best way to provide 
a safe, secure and functional system.
    If we do not put effective security measures in place, our 
nation may very well be susceptible to another attack, which, 
in turn, will cause a major disruption in commerce and could 
subject us to grim economic consequences.
    We must make sure that we have confidence in cross-border 
trucking. And we must demonstrate that we know who is in our 
country and what they are carrying, where they are going, and 
anything less is unacceptable.
    We will look at members' legislative initiatives. We will 
also look at a comprehensive response legislatively to trucking 
and border security. We will not leave them out. We will 
include the thoughts of industry, the thoughts of the 
department, and certainly the thoughts of truckers who, every 
day, are on the front lines themselves. They are a vital part 
of the economic engine of this country, but we must ensure 
safety.
    Be on the lookout for a comprehensive legislative approach 
to many of these concerns.
    It is now my pleasure to recognize the ranking member of 
the subcommittee, the gentleman from California, who I have had 
an important discussion on truck safety, as he has offered an 
important initiative on that question as well. I yield to the 
gentleman.
    Mr. Lungren. Thank you very much, Chairwoman Jackson Lee. I 
want to commend you for holding today's hearing.
    Our Homeland Security Committee has addressed many of the 
security concerns in the airline industry, the maritime 
industry, the chemical industry, and, most recently, the rail 
and mass transit industry, which we all hope will soon be 
enacted into law.
    It is interesting that we are talking today about the 
trucking industry. I read an article recently that I found most 
fascinating. Following World War I, a young Army officer named 
Dwight D. Eisenhower was given the responsibility of taking a 
military caravan from one end of this country to the other to 
show the difficulty in transportation in this country.
    It was out of that experience, after World War I, that 
drove him, as president of the United States, to establish the 
interstate highway system on the basis of its national security 
concerns. Having been in charge for the wartime effort for 
moving troops and equipment across Europe, he saw the 
inadequacy of our system that remained after World War II.
    We have a very different situation today. Today, our 
highway system, in many ways, in the envy of the world. It 
creates a world that did not exist prior to its existence.
    And today, cross-border trucking provides the key 
transportation component for almost 70 percent of the value of 
freight between the United States and Canada. Between Mexico 
and the U.S., trucks carry 83 percent of the freight, or $219 
billion worth of goods in 2006.
    The volume of trade required over 8 million border truck 
crossings between Mexico and the U.S. and, I am informed, 14 
million between Canada and the U.S.
    Obviously this opportunity carries with it also risk. This 
large number of border truck crossings poses a serious and 
continuing risk to homeland security.
    Since 9/11, we have struggled to find the right balance 
between securing our homeland without undermining our economy. 
What security measures can we adopt at our airports, seaports 
and landports which improves our national security without 
negatively impacting our vital economic and trade activity? 
That is the question we have been wrestling with.
    Finding the right balance between national and economic 
security will be an ongoing struggle as we deal with this new 
terror threat. We can never allow our national security to 
undermine our economic security, or the terrorists will win.
    This is why I join many others on this committee in being 
such a strong proponent of risk-based security measures, such 
as the automated targeted screening program, ATS, in the fight 
against terror. ATS allows the Customs and Border Patrol to 
target high-risk cargo crossing the U.S. border. These risk-
based security measures strike the appropriate balance between 
national and economic security.
    Every time we deal with this and allied issues, it is 
important to remind ourselves we do not exist, nor can we 
exist, in a risk-free environment. We have to manage risk. We 
have to make sure we are smarted than the bad guys. We have to 
use our technology, our intelligence, our personnel, and our 
perseverance to ensure that the terrorists do not succeed.
    If they close down our economy through threat, they are as 
successful as if they have an actual physical attack on our 
country. And we have to understand that that is why it is 
important for us to try and strike that proper balance. And 
that is why these hearings are helpful in giving us the kind of 
information to make those decisions that strike that balance.
    And I thank the gentlelady for the time, and I look forward 
to these hearings.
    Ms. Jackson Lee. I thank the gentleman for his insight.
    It is my pleasure now to welcome the witnesses.
    And, at this time, I would like to welcome Mr. Bill 
Arrington, general manager for highways at the Transportation 
Security Administration. In this capacity, he has primary 
responsibility for commercial motor vehicle security and 
critical infrastructure security for our nation.
    I would also like to welcome Mr. Greg Olsavsky, director of 
cargo control at U.S. Customs and Border Protection. As 
director of cargo control, Mr. Olsavsky has operational program 
management responsibility over manifests, cargo conveyance, 
clearance, cargo release, automated commercial environment, 
truck e-manifests, and multimodal manifest projects.
    We look forward to your testimonies.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with you, Mr. Arrington, from the 
Transportation Security Administration.

STATEMENT OF BILL ARRINGTON, GENERAL MANAGER, HIGHWAY AND MOTOR 
    CARRIER DIVISION, TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Arrington. Thank you, and good afternoon, Chairwoman 
Jackson Lee, Ranking Member Lungren, and members of the 
subcommittee.
    Thank you for the opportunity to discuss TSA's activities 
to protect highway operators and assets. I would like to 
highlight some of the important steps TSA is taking with our 
government and industry partners to ensure our highway security 
reaches its highest level possible.
    First I would like to introduce myself to the subcommittee.
    Ms. Jackson Lee. Would you turn on your microphone or put 
it closer to you? Thank you.
    Mr. Arrington. Thank you.
    First I would like to introduce myself to the subcommittee. 
As you stated, I am the general manager of TSA's Office of 
Highway and Motor Carrier Division, with primary responsibility 
in commercial motor vehicle security and critical 
infrastructure security for our nation.
    When I joined TSA in the latter part of 2002, my first 
assignment was area director for the south-central region of 
the country, which includes the great state of Texas. Now, with 
primary concern in the aviation industry, you are absolutely 
right, that is where TSA's primary purpose was at that time for 
obvious reasons, was in the aviation community.
    Prior to joining TSA, I enjoyed a 30-year career with the 
Maryland State Police, retiring 3 days prior to starting to 
work for TSA. I retired as a deputy superintendent with the 
Maryland State Police. I was chief of the Field Operations 
Bureau at that time.
    Under the leadership of our administrator, Mr. Kip Hawley, 
the culture of TSA has changed for the better.
    It is an absolute requirement that all entities within TSA 
collaborate and partner with industries at every level and in 
an effort to enhance national security.
    It is important to keep in mind that a robust security 
system is multilayered. Regardless of the mode or facility, TSA 
relies on the interconnected system to provide the layers of an 
effective security program.
    Highway security does not start or stop with the vehicles 
themselves. TSA measures rely on everything from intelligence 
gathering overseas to border security to awareness and 
vigilance of motorists themselves.
    TSA does not make distinctions between domestic and foreign 
trucking operators. Once a truck or other highway vehicle has 
crossed the border and completed all safety and security checks 
required by the Department of Transportation and the United 
States Customs and Border Protection, it poses and is subject 
to the same level of security risk threat assessment as if it 
were a domestic vehicle.
    As a result, TSA's security programs for the highway modes 
are designed to benefit all participants, regardless of their 
home base.
    The Corporate Security Review initiative is the very 
centerpiece in an effort to establish a baseline for homeland 
security within the Office of Highway and Motor Carrier. TSA 
created a program to evaluate and collect physical and 
operational preparedness information and to share that 
information with our industry on best practices.
    Over the last year, we have trained more than 40 state of 
Missouri enforcement officers who, in turn, have conducted more 
than 1,300 corporate security reviews within their own state 
and created for us a force multiplier.
    We also have conducted in-house, with existing staff, 
nearly 100 CSRs using our existing staff.
    We view law enforcement as our first line of defense. An 
example of this is TSA's partnership with the Federal Law 
Enforcement Training Center, FLETC, and created the Commercial 
Vehicle Counterterrorism Training Program for state and local 
law enforcement officers.
    In an effort to address drivers hauling hazardous material, 
we train law enforcement officers to detect fraudulent 
documents and to identify suspicious activities. In addition, 
we are passing intelligence to them, as evidenced by a recent 
alert for the suspicious activities relating to chlorine 
shippers.
    At the Commercial Vehicle Counterterrorism Training 
Program, we initially trained 90 officers, with the intent that 
once they were back at their home district they would become, 
again, a force multiplier and use what they learned to train 
others.
    With the information collected through the CSRs, TSA has 
developed--
    Ms. Clarke. [Presiding.] Mr. Arrington, if you would just 
take a moment and sum up.
    Mr. Arrington. OK, thank you.
    Security and safety is a shared responsibility. It would 
take a collaborative effort between government and industry to 
stop the next terrorist attack. The future requires a secure 
posture that relies upon technology to provide real-time, 
detailed pictures in order to respond immediately to threats to 
national security.
    Thank you for the opportunity to appear here today. I would 
be more than willing to answer any questions you may have.
    [The statement of Mr. Arrington follows:]

                Prepared Statement of William Arrington

    Good afternoon Chairwoman Jackson Lee, Ranking Member Lungren, and 
members of the Subcommittee. Thank you for the opportunity to appear 
before you today to discuss TSA's highway security programs. As the 
General Manager of the Transportation Security Administration's (TSA) 
highway and motor carrier security programs, I am pleased to be here to 
discuss TSA's activities to protect highway operators and assets, 
regardless of their origin.
    The Nation's Highway Transportation System is vast and 
interconnected, including 3.8 million miles of roadway; 582,000 
bridges; and 54 tunnels of more than 500 meters in length. The highway 
system supports 86 percent of all of our citizens' personal travel, 
moves 80 percent of the Nation's freight by value, and serves as a key 
component in national defense mobility. Nevertheless, despite 
widespread redundancies, there are critical junctures with limited 
capacity for additional traffic, and freight volume is projected to 
double by 2020, stretching the Nation's ability to manage limited 
capacity and growing security concerns.
    Trucks transport the majority of all of the goods in the United 
States. These shipments include agricultural goods, hazardous materials 
(HAZMAT), electronics, automotive and other products essential to our 
economy. The trucking industry is unique in that it is the only segment 
of the Highway Infrastructure and Motor Carrier Mode with complete 
intermodal supply chain relationships linking the Aviation, Maritime, 
Mass Transit, Passenger Rail, Freight Rail, and Pipeline modes. With 
widespread access to not only intermodal infrastructure, but also 
contact with large numbers of people and goods, it is important that 
coordination between trucking operation and other modes includes 
effective lines of communication and coordinated security measures to 
establish and maintain safe and secure transport of goods and people.
    TSA makes no operational distinction between domestic and foreign 
trucking operators. Once a truck or other highway vehicle has crossed 
the border, completing all necessary safety and security checks 
required by the Department of Transportation and U.S. Customs and 
Border Protection, it poses and is subject to the same level of 
security risk and threat assessment as if it were a domestic vehicle. 
As a result, TSA's security planning and programs for the highway mode 
are designed to benefit all participants, regardless of their home 
base.

Security Strategy
    Highway infrastructure and motor carrier security is advanced by 
implementing layered security measures through transportation systems 
operations and management. Toward this end, the Department of Homeland 
Security (DHS), the Department of Transportation (DOT), State and local 
government entities, and private sector security partners continue to 
be committed to improving the Highway Transportation System.
    The security of the Highway Transportation System is a shared 
responsibility among Federal, State, and local governments and private 
stakeholders. Measures to secure the assets of the Highway 
Transportation System must be implemented in a way that balances cost, 
efficiency, and preservation of commerce in this Nation. Federal, 
State, local, and tribal government agencies, along with private 
stakeholders, will lead the national effort to maintain the capability 
to move freely and facilitate interstate commerce under all conditions.
    Vehicles that use the highways are potential targets and weapons 
that terrorists or criminals could use to attack critical 
infrastructure or other assets. The diversity of highway industries 
poses additional challenges to the effective integration of security 
into both large, complex operations and smaller owner/operator 
businesses. To address these security issues, it is important that the 
Federal Government continues to work effectively within established 
public-private partnerships, implementing a variety of programs to 
enhance the security of domestic highway operations.

Scope of the Mode
    The trucking industry is made up of predominantly small private 
companies. Approximately 675,000 are interstate and 400,000 are 
intrastate companies. In addition to for-hire trucking, private truck 
operations are integral to other business operations, such as 
construction, agriculture, and the delivery of goods and services. 
Nearly 8 million large trucks are registered in the United States. 
While approximately 9.3 million truck drivers have commercial driver's 
licenses (CDLs), only 3.3 million are regarded as active. Vehicle 
configurations include tankers, dump trucks, intermodal containers, 
flat-beds, and specialty vehicles.
    The motorcoach industry is comprised of approximately 3,600 
motorcoach companies, operating 39,000 motorcoaches that carry nearly 
630 million passengers annually in the United States and Canada, 
traveling approximately 2.44 billion miles per year. The motorcoach 
industry, similar to the trucking component, also operates with multi-
modal interconnectivity on a daily basis, providing passenger and 
limited freight service on a national level. Again, such open access 
requires coordinated safety and security efforts across modes.
    The school transportation industry, which is comprised of 
approximately 460,000 schoolbuses, is the largest public fleet of 
vehicles in the United States. Each day, nearly 23.5 million minor 
students travel to approximately 14,000 public educational agencies 
nationwide. In the United States, schoolbuses travel 4 billion miles 
annually on fixed daily routes, as well as periodically conducting 
transportation to public venues.
    In accordance with Executive Order 13416, TSA's strategy for 
highway security includes four major elements: evaluation of current 
security practices and recommendations for improvement; robust 
information sharing with government and industry; enhanced cooperation 
with stakeholders; and technological research, development, testing and 
evaluation.

Evaluation and Recommendation
    No overall security strategy can be successful without 
investigation of current security practices throughout the mode. As a 
result, TSA created the Corporate Security Review (CSR) program. CSRs 
are conducted with organizations engaged in transportation by motor 
vehicle and those that maintain or operate key physical assets within 
the highway transportation community. They serve to evaluate and 
collect physical and operational preparedness information and critical 
asset and key point-of-contact lists; review emergency procedures and 
domain awareness training; and provide an opportunity to share industry 
best practices. To date, 96 CSRs have been conducted throughout the 
highway mode. Over the past year we have piloted our CSR program to our 
state partners. We trained 40 State of Missouri enforcement officers to 
conduct CSRs within their state, to date they have conducted over 1500 
CSRs. We are now in the process of piloting the CSR program to TSA's 
Federal Security Directors (FSD) and plan to begin training with three 
airports in August.
    Using the information collected through the CSR program, TSA is 
developing recommended Security Action Items (SAIs), voluntary 
practices designed to improve security for trucks carrying security-
sensitive HAZMAT, motorcoaches and schoolbuses, and highway 
infrastructure. SAI development is being coordinated with the 
Department of Transportation's (DOT's) Federal Motor Carrier Safety 
Administration (FMCSA) and Pipeline and Hazardous Materials Safety 
Administration (PHMSA). TSA has worked to tie risk to the application 
of the SAIs through the development of lists of High Security Hazardous 
Materials and Sensitive Security Hazardous Materials. In this way, 
specific SAIs are applied to groupings of hazardous materials. TSA has 
been working with chemical manufacturers, shippers, and motor carriers 
along with the Highway Infrastructure and Motor Carrier Sector 
Coordinating Council (SCC) to obtain industry review and input on the 
SAIs prior to issuance. The SCC is a private organization created to 
coordinate infrastructure protection efforts with government 
stakeholders involved in the National Infrastructure Protection Plan 
process. SAIs, though voluntary, will allow TSA to communicate and 
formally share those security actions identified as key elements within 
an effective and layered approach to transportation security. Many of 
the applicable stakeholders are currently employing some of these 
security actions as evidenced by the results of the CSRs and other 
direct outreach to stakeholders. TSA is also working with trucking 
insurance underwriters to introduce SAIs and to inquire as to the role 
of the insurance industry in enhancing highway security. TSA and PHMSA 
have created an Annex to DHS/DOT Memorandum of Understanding to 
delineate clear lines of authority, promote communication between the 
agencies, and foster cooperation, and prevent duplication of effort in 
the area of hazardous material and pipeline transportation security.

Information Sharing
    In order to facilitate direct contact with industry and government 
stakeholders, TSA has created two avenues to share information 
directly, through an Information Sharing and Analysis Center (ISAC), 
and the Homeland Security Information Network (HSIN). Using funds 
provided through the Trucking Security Grant Program, the American 
Trucking Associations (ATA) operates an ISAC for the highway mode in 
partnership with national and State trucking associations and 
conferences of the ATA Federation, as well as numerous other national 
highway transportation organizations in participating the Highway 
Watch<SUP>'</SUP> Coalition for the benefit of the entire Highway 
Transportation System. The Highway ISAC works with both public and 
private stakeholders to collect, share, and analyze information that 
provides a security benefit for the entire mode. The ISAC disseminates 
information bulletins, alerts, and other security-related reports to 
stakeholders via e-mail.
    In addition to the Highway ISAC, the HSIN provides a secure, 
single-source, web-based information-sharing network to assist in the 
two-way communication of security-related information. The Highway and 
Motor Carrier Infrastructure Protection Government Coordinating 
Council, made up of federal and state government entities, has created 
a Web portal on HSIN. In addition, the Highway SCC will be creating 
their own Web portal on HSIN to allow private sector stakeholders to 
engage in two-way communication with the public sector to share, 
review, discuss, and disseminate security information in an efficient 
and effective format.

Cooperation with Stakeholders
    TSA continues to develop and enhance our connections to 
stakeholders for collaboration. We continue to administer the program 
to provide security threat assessments on drivers seeking to obtain, 
renew, or transfer a HAZMAT endorsement on their commercial drivers 
license (CDL); work to enhance training opportunities for workers 
throughout the sector; and provide the subject matter expertise 
necessary to administer the highway mode infrastructure protection 
grants.
    In cooperation with state motor vehicle administrations, TSA 
continues to conduct security threat assessments on all applicants for 
hazardous materials endorsements (HME) to CDLs. Section 1012 of the USA 
PATRIOT Act of 2001 requires all commercial drivers seeking to apply 
for, renew, or transfer an HME on their State-issued CDL to undergo a 
``security threat assessment'' to determine whether or not the 
individual poses a security risk. Individuals may be disqualified from 
holding an HME based on the assessment, which is comprised of an FBI 
fingerprint-based criminal history records check, an intelligence 
check, and legal status check. Drivers determined to be a security 
threat are prevented from receiving HMEs on their CDLs. To further 
enhance security, TSA is evaluating options to perform name-based 
screening of all CDL holders against the terrorist watch lists. These 
requirements apply to all drivers resident in the United States. For 
foreign drivers, as required by section 70105 of the Safe, Accountable, 
Flexible, Efficient, Transportation Equity Act, a Legacy for Users 
(SAFETEA-LU) (P.L. 109-59), drivers registered in Canada and Mexico 
wishing to transport explosives or other hazardous materials into the 
United States must undergo a similar background check to that required 
by the USA PATRIOT Act. As a result, TSA requires these drivers to 
participate in the Free and Secure Trade Program run by Customs and 
Border Protection, which provides the necessary background check. As 
suggested by the Committee, we are also continuing to evaluate the 
scope of the HME program to make improvements, including reviewing the 
materials covered by the HME regulation in cooperation with DOT, to 
determine materials that are security sensitive for future program 
improvements.
    We also continue to work closely with industry stakeholders, and 
State, local, and tribal governments to enhance truck and motorcoach 
security awareness and training. Existing Federal site visit programs 
will be coordinated to enhance security awareness and training, and 
provide technical and threat information. This effort will build on 
existing complementary DHS and DOT efforts. The Federal Government will 
also provide assistance to the bus and motorcoach industries to develop 
and implement security plans and security training for employees. 
Enhancing programs that support law enforcement agencies, such as DOT's 
Trucks 'n Terrorism training and courses offered by the DHS's Federal 
Law Enforcement Training Center, will raise awareness of indicators of 
suspicious activities involving commercial motor vehicles.
    TSA provides the subject matter expertise necessary to administer 
the highway portions of the Infrastructure Protection grant program, 
including the Trucking Security Program (TSP) and the Intercity Bus 
Security Grant Program (IBSGP). The TSP primarily sustains the Highway 
Watch<SUP>'</SUP> program to enhance homeland security through 
increased vigilance and awareness on our Nation's highways. In FY 2006 
TSP awarded $4,801,500 (out of a total appropriation of $5 million) 
directly to Highway Watch<SUP>'</SUP>. TSP seeks to assist all 
professionals and operating entities throughout the Highway 
Transportation System in obtaining training on security awareness, 
reporting suspicious incidents, and information analysis. The TSP 
awarded $11.6 million in FY 2007. The mission of the IBSGP is to, 
through the distribution of grant money to eligible stakeholders, 
create a sustainable plan for protecting intercity bus systems and the 
traveling public from terrorism, especially from explosives and non-
conventional threats that would cause major loss of life and severe 
disruption. The FY 2006 IBSGP awarded $9.5 million, and the FY 2007 
IBSGP awarded $11.6 million. The President has requested $9 million for 
the TSP and $12 million for the IBSGP in FY 2008.

Research, Development, Testing and Evaluation
    TSA is also sponsoring the evaluation of technology with security 
benefits to the highway mode, including the Truck Tracking Security 
Pilot. The ability to track trucks, especially those carrying certain 
HAZMAT, has potential security benefits. DOT's FMCSA conducted a 
tracking pilot and TSA is in the midst of conducting one. FMCSA 
conducted a 2-year national field operational study of existing 
technologies offering enhanced solutions to the security of motor 
carrier shipments of HAZMAT, which was completed in December 2004. The 
test evaluated the costs, benefits, and operational processes required 
for wireless communications systems, including global positioning 
system tracking and other technologies. The tested technologies 
performed well under operational conditions and showed promise for 
significantly reducing security vulnerabilities.
    Building on FMCSA's efforts, TSA is testing near real-time tracking 
and identification systems, theft detection and alert systems, motor 
vehicle disabling systems, and systems to prevent unauthorized 
operation of trucks and unauthorized access to their cargos. As a 
result of this pilot, TSA will be able to evaluate such factors as the 
costs and benefits of the system; the ability to collect, display, and 
store information on shipments of high-risk materials by motor vehicle 
and/or trailer throughout the supply chain; and the capability of the 
system to resist accidental or unauthorized disabling. The operational 
phase of the pilot should conclude shortly, and once the results have 
been evaluated, TSA will consider the benefits to security that can be 
added by encouraging private industry to adopt widespread use of the 
technology.

Conclusion
    In conclusion, it is important to keep in mind that a robust 
security system is multi-layered. Regardless of the mode or facility, 
TSA relies on the interconnections and redundancies of the nation's 
transportation system to provide the layers necessary for a robust 
security system. Highway security does not start and stop with the 
vehicles themselves. The program relies on everything from intelligence 
gathering overseas, to border security, to the awareness and vigilance 
of the truckers themselves. Thank you for the opportunity to appear 
here today. I would be pleased to answer any questions you may have.

    Ms. Clarke. Thank you for your testimony.
    I now recognize Mr. Olsavsky, with CBP, to summarize his 
statement for 5 minutes.

STATEMENT GREG OLSAVSKY, DIRECTOR, CARGO CONTROL, U.S. CUSTOMS 
                     AND BORDER PROTECTION

    Mr. Olsavsky. Good afternoon, Madam Chairwoman Jackson Lee, 
Ranking Member Lungren, Member Cuellar, and distinguished 
members of the subcommittee.
    I am Greg Olsavsky. I am the director of cargo control for 
Customs and Border Protection. And I have program 
responsibilities for a lot of the topics that are the subject 
of this hearing today.
    Thank you for this opportunity to discuss with you today 
Customs and Border Protection's efforts to ensure the security 
of containerized cargo imported across our nation's land 
borders.
    As you know, CBP has developed and implemented 
unprecedented initiatives to achieve our twin goals of 
preventing the entry of terrorists and terrorist implements and 
facilitating the flow of legitimate trade and travel.
    CBP uses a multilayered approach to ensure the integrity of 
its supply chain, from the point of stuffing through arrival at 
a U.S. port of entry. This multilayered approach includes the 
use of trained CBP officers, technology, automation, advance 
electronic information, and partnerships with the trade and 
foreign governments.
    I understand that many members of the subcommittee have had 
the opportunity to view our strategy in action, either in our 
seaports, land border ports, or airports.
    As you may have noted during any of these visits, CBP's 
cargo enforcement strategy is an overarching, multilayered 
approach and is applicable to all modes of transportation in 
the air, land and sea environment.
    My testimony today, however, will focus on our efforts 
related to containerized cargo at the land borders.
    CBP utilizes advance cargo information, automated targeting 
and screening, private and public partnerships, cutting-edge 
technology, and a highly skilled, well-trained workforce in 
order to gain operational control and protect the Nation at and 
between the ports of entry.
    I will touch on each of these areas very briefly and would 
certainly welcome further discussion.
    Advance electronic cargo information: One of the key 
components of CBP's layered defense is the receipt of advance 
electronic cargo information required by all modes of 
transportation by the Trade Act of 2002, including the 1-hour 
rule for non-free and secure trade, or FAST, shipments and the 
30-minute rule for FAST shipments in the truck environment.
    CBP is currently working to obtain additional advance cargo 
information and enhance our ability to perform risk-based 
targeting. Obtaining data earlier in the process will increase 
the transparency of the global supply chain, allowing CBP to 
greatly refine its targeting processes.
    Automated targeting system: Advance cargo information on 
all inbound shipments for all modes of transportation is 
effectively evaluated using the automated targeting system, or 
ATS, before arrival in the United States.
    As a matter of background, ATS provides decision support 
functionality for CBP officers working in advanced targeting 
units, or ATUs, at our ports of entry and at foreign ports.
    National targeting rule sets have been implemented in ATS 
to provide threshold targeting for national security risk for 
all modes: sea, truck, rail and air.
    Public and private partnerships: CBP has developed several 
partnerships with industry to enhance security and facilitate 
trade. Foremost among these are Free and Secure Trade, or FAST, 
and the Customs-Trade Partnership Against Terrorism, or C-TPAT.
    The FAST program establishes bilateral initiatives between 
the United States and NAFTA partners designed to ensure 
security and safety while enhancing the economic prosperity of 
partner countries.
    C-TPAT is a voluntary government business initiative to 
build cooperative relationships that strengthen and improve 
overall international supply chain and U.S. border security.
    Both the FAST and C-TPAT programs recognize that CBP can 
provide the highest level of cargo security only through close 
cooperation with the ultimate owners of the international 
supply chain, such as importers, carriers, consolidators, 
licensed customs brokers, and manufacturers.
    Use of cutting-edge technology: Given the magnitude of 
CBP's responsibility, the development and deployment of 
sophisticated detection technology is essential. Technology 
deployed to our nation's ports of entry include large-scale X-
ray and gamma imaging systems and a variety of radiation portal 
detection devices.
    Prior to 9/11, not a single radiation portal monitor, or 
RPM, and only 64 large-scale non-intrusive inspection, or NII, 
systems were deployed to our nation's ports of entry. CBP 
currently has 978 RPMs and 178 large-scale NII systems deployed 
nationwide. This is progress.
    Additionally, all CBP ports of entry and border patrol 
stations have access to the Automated Biometric Identification 
System/Integrated Automated Fingerprint Identification System, 
otherwise known as IDENT/IAFIS, which was established to merge 
the capabilities of the FBI's criminal master fingerprint file 
and the former Immigration and Naturalization Service's 
immigration violator database.
    The goals of the system were to identify repeat immigration 
offenders and identify criminals and previously deported aliens 
who should be detained.
    CBP border patrol agents are also securing areas between 
the ports of entry through the use of a variety of systems that 
provide coverage 24 hours a day, 7 days a week, to detect 
illegal crossings on our northern and southern borders.
    Last but not least, CBP employs professional and well-
trained officers, including canines, at ports of entry, whose 
training, experience and intuition present a formidable defense 
against attempts to circumvent the laws and regulations 
enforced by CBP.
    The combination of advance cargo screening systems, 
inspections and surveillance tools, and a professional and 
well-trained workforce help CBP accomplish its mission of 
protecting America.
    In addition, the CBP is continually searching for new and 
improved technologies and applying successful enforcement 
strategies to further ensure safety and security against 
terrorism.
    I have briefly outlined some of CBP's efforts to ensure the 
security of containerized cargo imported across our nation's 
land borders. Thank you again for the opportunity to testify. I 
would be happy to answer any of your questions.
    [The statement of Mr. Olsavsky follows:]

                  Prepared Statement of Greg Olsavsky

    Good morning Madam Chairwoman Jackson-Lee, and Members of the 
Subcommittee. Thank you for this opportunity to discuss with you today 
U.S. Customs and Border Protection's (CBP) efforts to both strengthen 
the security of cargo entering our borders and facilitate the flow of 
legitimate trade and travel.
    CBP has made great strides toward securing America's borders, 
facilitating legitimate trade and travel, and ensuring the vitality of 
our economy. As America's frontline border agency, our priority mission 
is to protect the American public against terrorists and the 
instruments of terror while at the same time enforcing the laws of the 
United States and fostering the Nation's economic security through 
lawful travel and trade. Today, trained CBP Officers, technology, 
automation, electronic information, and partnerships with the trade and 
foreign governments are concepts that underpin CBP's cargo security and 
anti-terrorism initiatives. These concepts extend our zone of security 
outward and reinforce the components of our layered defense strategy.
    As we work toward securing our ports and borders, we must also 
continue to perform our traditional missions, which include stemming 
the flow of illegal drugs and other contraband, protecting our 
agricultural and economic interests from harmful pests and diseases, 
protecting American businesses from theft of their intellectual 
property, regulating and facilitating international trade, collecting 
import duties, and enforcing United States trade laws. In FY 2006, CBP 
processed more than 422.8 million pedestrians and passengers, 131 
million conveyances, 28.8 million trade entries, scanned and physically 
examined 5.6 million sea, rail, and truck containers, intercepted 1.1 
million illegal aliens between our ports of entry intercepted more than 
2.7 million prohibited plant and animal products, and seized more than 
2.2 million pounds of narcotics.
    In order to accomplish our mission of securing America's borders 
and facilitating trade, CBP has developed a layered enforcement 
strategy, part of CBP's philosophy of a smart and extended border 
security strategy designed to protect the global supply chain, our 
country, our economy--and ultimately, others countries and the global 
economy. I will focus my comments today on our efforts at the land 
borders. CBP utilizes advance cargo information, automated targeting 
and screening, private and public partnerships and cutting edge 
technology in order to gain operational control and protect the Nation 
at and between ports of entry.
        <bullet> Advance Electronic Cargo Information: As required by 
        the Trade Act of 2002, advance cargo information must be 
        provided through the CBP-approved automated data interchange. 
        For truck cargo, the Automated Commercial Environment (ACE) is 
        the approved system and information must be provided 1 hour 
        prior to the arrival of the truck at the border crossing for 
        non-Free and Secure Trade (FAST) shipments or 30 minutes prior 
        to arrival for FAST shipments. ACE has made electronic risk 
        management far more effective by allowing full security 
        screening by the Automated Commercial System (ACS) Selectivity 
        module and the Automated Targeting System (ATS).
        <bullet> Automated Targeting System: CBP uses ATS to identify 
        cargo that may pose a threat. CBP's Office of Intelligence and 
        the National Targeting Center (NTC) enhance these initiatives 
        by synthesizing information to provide tactical targeting. 
        Using risk management techniques they evaluate people and goods 
        to identify a suspicious individual or shipment before it can 
        reach our borders. To broaden the scope of CBP targeting, NTC 
        works with other DHS components, law enforcement agencies and 
        governments, expanding its staff to better accommodate the 
        ever-increasing demands for tactical information and continues 
        to develop and refine more sophisticated targeting tools.
        <bullet> Public and Private Partnerships: CBP has developed 
        several partnerships with industry to enhance security and 
        facilitate trade. Foremost among these are Free and Secure 
        Trade (FAST) and the Customs-Trade Partnership Against 
        Terrorism (C-TPAT). The FAST program, which is operational on 
        both our northern and southern borders, establishes bilateral 
        initiatives between the United States and NAFTA partners 
        designed to ensure security and safety while enhancing the 
        economic prosperity of partner countries. In developing this 
        program, Mexico and the United States have agreed to coordinate 
        to the maximum extent possible, their commercial processes for 
        clearance of commercial shipments at the border. This promotes 
        free and secure trade by using common risk-management 
        principles, supply chain security, industry partnership, and 
        advanced technology to improve the efficiency of screening and 
        clearing commercial traffic at our shared border. FAST is a 
        harmonized clearance process for shipments of known compliant 
        importers. Thus, any truck using FAST lane processing must be a 
        Customs-Trade Partnership Against Terrorism (C-TPAT) approved 
        carrier, carrying qualifying goods from a C-TPAT approved 
        manufacturer, and importer, and the driver must possess a valid 
        FAST-Commercial Driver Card. C-TPAT is a voluntary government-
        business initiative to build cooperative relationships that 
        strengthen and improve overall international supply chain and 
        U.S. border security. C-TPAT recognizes that CBP can provide 
        the highest level of cargo security only through close 
        cooperation with the ultimate owners of the international 
        supply chain such as importers, carriers, consolidators, 
        licensed customs brokers, and manufacturers.
    The C-TPAT program also has undertaken a strong enforcement 
posture. The agency suspends or removes members from the program who 
have misled CBP as to their security measures, or whose security is so 
lax as to allow the supply chain to be breached, as evidenced by a 
narcotics or human smuggling incident at the port of entry. Over 100 
companies have been suspended or removed in the past year.
        <bullet> Use of Cutting-Edge Technology: Given the magnitude of 
        CBP's responsibility the development and deployment of 
        sophisticated detection technology is essential. Deployment of 
        Non-Intrusive Inspection (NII) technology is increasing and 
        viewed as ``force multipliers'' that enable CBP officers to 
        screen or examine a larger portion of the stream of commercial 
        traffic. CBP is currently utilizing large-scale X-ray and gamma 
        ray machines and radiation detection devices to screen cargo.
    All CBP Ports of Entry and Border Patrol Stations have access to 
the Automated Biometric Identification System/Integrated Automated 
Fingerprint Identification System otherwise known as IDENT/IAFIS, which 
was established to merge the capabilities of the FBI's criminal master 
fingerprint file and the former Immigration and Naturalization 
Service's immigration violator database. These systems have been 
integrated into one system that captures biometric and biographical 
information through the use of a ``10 Print'' fingerprint machine and 
computer based facial imagery. The goals of the system are to identify 
repeat immigration offenders and identify criminals and previously 
deported aliens who should be detained.
    In addition to NII and IAFIS, CBP Border Patrol agents are better 
securing areas between the ports of entry through the use of the 
Integrated Surveillance Intelligence System (ISIS), a system that uses 
remotely monitored night-day camera and sensing systems to better 
detect, monitor, and respond to illegal crossings; Unmanned Aerial 
Vehicles (UAVs) for monitoring remote land border areas where patrols 
cannot easily travel and infrastructure is difficult or impossible to 
build; Remote Video Surveillance Systems (RVSS) that provide coverage 
24 hours a day, 7 days a week to detect illegal crossings on our 
northern and southern borders; and the Geographic Information System 
(GIS) to track illegal migration patterns.
    Madam Chairwoman Jackson-Lee, Members of the Subcommittee, I have 
briefly addressed CBP's initiatives that help CBP protect America 
against terrorists and the instruments of terror, while at the same 
time enforcing the laws of the United States and fostering the Nation's 
economic security through lawful travel and trade. With the continued 
support of the President, DHS, and the Congress, CBP will succeed in 
meeting the challenges posed by the ongoing terrorist threat and the 
need to facilitate ever-increasing numbers of legitimate shipments and 
travelers.
    Thank you again for this opportunity to testify. I will be happy to 
answer any of your questions.

    Ms. Jackson Lee. [Presiding.] Thank you, gentlemen. I 
appreciate your testimony and your presence here today.
    Let me acknowledge members of the committee who are here: 
Mr. DeFazio of Oregon. We thank him for his presence. Ms. 
Clarke of New York, we thank her for her presence. And we thank 
Mr. Cuellar of the full committee for his presence as well.
    I started out by saying that the large question of 
terrorism and the effect of it will always come to those of us 
who are entrusted with the responsibility, the major 
responsibility.
    I would like the both of you to answer this question. Do 
you work with each other? Mr. Arrington, do you work with CBP? 
And, Mr. Olsavsky, do you work with TSA?
    And what are the cooperative pathways that you work? And 
how does that impact border security and, in particular, since 
this hearing is geared toward trucks? Specifically, what are 
the elements of cooperation, which may include programmatic, 
personnel, or otherwise?
    Mr. Arrington?
    Mr. Arrington. Thank you.
    Yes, we do work together. CBP, TSA, we have a longstanding 
working relationship that we enjoy very much.
    The information that CBP gathers in their FAST program is 
equivalent to that which we use for drivers that apply and 
receive HAZMAT endorsements within the United States. That 
information is, in fact, shared routinely from our TTAC office, 
our office of credentialing, along with CBP.
    So, yes, we do, in fact, work together on those issues of 
mutual interest.
    Ms. Jackson Lee. So you receive their information, their 
data that they have collected? Is that--
    Mr. Arrington. Yes.
    Ms. Jackson Lee. And you utilize that in whether or not you 
give truckers or trucking companies--
    Mr. Arrington. Truck drivers.
    Ms. Jackson Lee. Truck drivers.
    Mr. Arrington. Yes, ma'am.
    Ms. Jackson Lee. So you use that data as you assess truck 
drivers--
    Mr. Arrington. Yes, ma'am.
    Ms. Jackson Lee. --and the endorsement that TSA would give, 
as it relates to security.
    Mr. Arrington. Yes. And it is equivalent to that which we 
use for HAZMAT drivers here in the United States in the FAST 
program.
    Ms. Jackson Lee. And does that cover the potential to do 
terrorist acts, as well?
    Mr. Arrington. Well, it is a criminal history check that we 
do on domestic carriers, as well as a check against our 
terrorist watchlist, as well as Immigration's check.
    Ms. Jackson Lee. Thank you, Mr. Arrington.
    Yes?
    Mr. Olsavsky. If I could just elaborate further, with 
regard to this particular project, it is a very good example of 
a close cooperation between CBP and TSA. Because whenever TSA 
was given the mandate to come up with a background check 
strategy for foreign drivers and a relatively aggressive time 
period within which to accomplish it, CBP was able to offer to 
them our FAST vetting process and the process we use to vet 
drivers as a mechanism by which to provide them with the 
opportunity to expedite meeting those requirements.
    And the FAST process includes a very detailed application 
process, criminal history checks through all of the available 
criminal history databases, personal interview between a 
uniformed officer and the applicant to determine whether or not 
there are any issues with the applicant, and then of course a 
full biometric profile and 10-point fingerprint scan to verify 
whether or not there are any derogatory information in any of 
the other databases that are out there.
    So that collaboration is a very good example of the close 
cooperation between TSA and CBP.
    Ms. Jackson Lee. And do you gather your information from 
national intelligence lists or intelligence information? Are 
you coordinating with our intelligence representatives in 
gathering your information?
    Mr. Olsavsky. Yes.
    Ms. Jackson Lee. And you have an internal intelligence 
component in the CBP?
    Mr. Olsavsky. That is correct.
    Ms. Jackson Lee. And do they collaborate on information 
from a number of sources?
    Mr. Olsavsky. Yes.
    Ms. Jackson Lee. And how accurate do you think your 
information is? Do you have the resources to make sure it is 
accurate?
    Mr. Olsavsky. Well, it is as accurate as the information in 
the database that is provided to us. Our connections and our 
research goes through a number of law enforcement databases. So 
we rely on the credibility and the accuracy of those databases.
    Ms. Jackson Lee. Let me ask, are there any mechanisms in 
place to monitor the activities of vehicles and drivers that 
temporarily enter the United States from Canada and Mexico for 
business purposes? And what prevents the driver and/or vehicle 
from remaining in the United States without boundaries?
    In essence, what is our tracking mechanism? And the key 
questions that we asked--what are they carrying, who is 
carrying it, and where are they going--is a key element to 
security.
    Mr. Arrington?
    Mr. Arrington. It is a great question and one, certainly, 
that I am not able to answer. I will have to defer to my 
colleague from CBP, as far as the tracking of those vehicles 
once they cross the border.
    I might add that we do have a tracking system, a truck 
tracking pilot that we are running in the United States that 
will run through the end of this year, where we are now 
tracking, real-time, hazardous material as it moves along our 
nation's highways.
    Ms. Jackson Lee. Meaning how long they are on the nation's 
highways from point A to point B?
    Mr. Arrington. Yes. We are able to track full-time. There 
is some tested technology out there that we will be able to 
take a look at, real-time, from our Transportation Security 
Operations Center. We have a truck tracking center set right 
now in the state of New York that is testing the different 
modes of truck tracking that we are able to share with the 
industry.
    Ms. Jackson Lee. Mr. Olsavsky, will you comment on the 
tracking issue?
    Mr. Olsavsky. First, I would just like to point out that 
CBP's principal role is to ensure that any person or conveyance 
that is crossing the border is eligible to enter the country. 
We are, in fact, the principal border search and border 
inspection agency, and that is our primary role.
    But beyond that, any person who approaches the border has 
to prove that they are eligible to cross the border. And along 
the southern border, for example, they have to present either a 
border crossing card, a DSP-150 ``laser'' visa, or some other 
document that indicates that they are eligible to enter the 
country.
    Once we prove they are eligible to enter the country and 
they go beyond the border, the responsibility for tracking them 
is outside of CBP's area of responsibility.
    Ms. Jackson Lee. Who do you pass it on to?
    Mr. Olsavsky. Well, depending on the nature of the 
transaction, whether it is an individual or a commercial 
conveyance.
    If anyone intends to be in the country more than 72 hours, 
they are issued an I-94 entry document. That document provides 
for tracking when they enter the country, and there is a 
portion of the document that they are supposed to return to us 
upon a departure. So we do use those documents.
    If someone is issued a visa for business, for example, a B-
1 visa for business, for example, they have a limited time 
period within which that visa is valid. And if they do not 
depart during that time period, they become a visa overstay, 
and then it becomes the responsibility of ICE to research and 
try to investigate the location of those individuals.
    Ms. Jackson Lee. And you use that same format for someone 
who is driving a truck?
    Mr. Olsavsky. Yes.
    Ms. Jackson Lee. I thank the witnesses.
    I have an additional question, but I am going to yield to 
the distinguished gentleman, as I yielded to myself, 5 minutes. 
I yield to the distinguished gentleman. The ranking member is 
now recognized.
    Mr. Lungren. Thank you very much.
    My goodness, this is 2007. NAFTA was ratified by Congress 
in 1993. It was supposed to be a 1-year pilot project at that 
time, in terms of trucks coming across the border; see how far 
they could come. In 1995 it was put on hold.
    The NAFTA dispute resolution panel determined that we were 
in violation of NAFTA for putting restrictions on more trucks, 
so the Congress then followed through on that to set up a pilot 
project.
    The Ninth Circuit, a court that I am very familiar with, 
the most overruled court in the United States, for which they 
take great pride and which was my frustration when I was 
attorney general of California, ruled that the Department of 
Transportation couldn't go forward with the program because 
they hadn't done something that the Ninth Circuit found that 
they should do.
    The U.S. Supreme Court then, as it does often, unanimously 
overturned the Ninth Circuit. And now it comes before the 
Congress. And there is a lot of concern about safety of the 
trucks still, lot of concern about security.
    And now, with the backdrop of 9/11 staring us in the face, 
members of Congress want to know what the present circumstance 
is with respect to a Mexican truck operator, coming from Mexico 
into the United States: What are the safety and security 
concerns there that you folks are responsible for, in your two 
cases, security; and then how you would provide that level of 
security that we expect, if we have either the expanded pilot 
program or go beyond that?
    So, if both of you could just walk us through what exists 
now and what the differences would be. Because there is a lot 
of information, or misinformation, out there, and I have never 
seen anybody take it simply, ``Here is what happens now. Here 
is what would happen under a new regime.''
    Mr. Olsavsky, I guess if you would start first with that?
    Mr. Olsavsky. Sure. They are very good questions, sir.
    First, let me just explain in a little more detail our 
layered enforcement strategy that we employ at all ports of 
entry. And it doesn't matter whether it is a land border port 
of entry or another port of entry.
    But specific to the land border, we receive advance 
information, as I explained in my opening remarks. And that 
advance information allows us to pre-screen cargo and trucks 
before they arrive at the border, allows us to assign a risk 
assessment to them and a risk profile--
    Mr. Lungren. And what time frame do you have for that? The 
information, how soon--
    Mr. Olsavsky. The information is presented to us an hour 
before the arrival for a non-FAST and 30 minutes prior to 
arrival for a FAST.
    Now, I will say that with FAST, of course, the requirements 
to participate in that program are stringent, and those folks 
have already been designated as low-risk.
    Mr. Lungren. OK. Now, we just had a situation with a guy 
with TB trying to come in the United States. You had a CBP guy 
look at it, it came up on the screen, he didn't act 
appropriately. That was within 2 minutes or whatever it was.
    Mr. Olsavsky. Right.
    Mr. Lungren. What, actually, time does somebody working for 
you folks have to check this out, to check a truck, and make a 
decision?
    Mr. Olsavsky. Well, by the time that truck arrives at the 
border, the screening of the information that was presented via 
the manifest has already been done. So when the truck 
approaches our primary inspection booths and the officers 
identify that shipment, either by way of a license-plate reader 
or by punching in the driver's information, they will get a 
message almost immediately that tells them whether or not this 
is high-risk shipment. And it is literally within a few seconds 
that the system will respond with that information.
    So all of the screening and the targeting is done even 
before the truck arrives at the border. And when the officers 
identify that shipment in the system, they get an immediate 
response from the system that tells them whether this is a 
high-risk shipment.
    Mr. Lungren. So I am a Mexican truck driver. I am bringing 
my stuff up. I have come to the border. You folks now know 
whether you should take a look at me or not take a look at me. 
You take a look at me. How far do I go in? How far do you 
follow it? What do you do? Or do you just leave it, at that 
point?
    Mr. Olsavsky. Well, the only difference between our current 
processes and the process that will be employed for the DOT 
trucking pilot is the fact that, because these drivers and any 
crew or passengers with them will be proceeding beyond the 
commercial zones, they will have to prove that they are 
eligible as a visitor for business. And so--
    Mr. Lungren. And for how long a period of time will that 
have it?
    Mr. Olsavsky. Generally, the B-1 visas are either single-
use or multi-use visas, and they can be valid for up to 6 
months.
    Mr. Lungren. So the fellow, he can stay up to 6 months. You 
have no control over how long he is there within that 6 months. 
And do you know when he leaves?
    Mr. Olsavsky. Yes, because they have to report their 
departure, according to the visa. Now--
    Mr. Lungren. They have to report. How do they report that?
    Mr. Olsavsky. Well, they have to present themselves to a 
Customs officer whenever they depart.
    Mr. Lungren. And then he checks up against the manifest 
that he would find or the information that he would find on his 
computer as he goes through?
    Mr. Olsavsky. Right, the arrival information and--
    Mr. Lungren. So it is no real difference from what you 
would do now, except that they would now have this extended 
period of time.
    Mr. Olsavsky. Correct.
    Mr. Lungren. And I know my time is up. Could I just ask Mr. 
Arrington to respond?
    Ms. Jackson Lee. I yield to the gentleman.
    Mr. Lungren. What is your administration's responsibilities 
now, and how would it change, if at all, under the pilot 
project that is projected?
    Mr. Arrington. Well, as far as cross-border security, TSA 
has no responsibility in that area for those foreign carriers. 
Our primary focus is on domestic carriers. However, we do, as I 
said early on, we do collaborate with CBP, other government 
partners, as well as private industry, with regard to the 
movement of vehicles.
    We do have our truck tracking pilot that is going on in the 
United States. But, again, we are tracking domestic carriers 
only hauling hazardous material.
    Mr. Lungren. So your answer is there would actually be no 
difference between what you do already and with the no problem, 
because you would treat them the same as domestic trucks?
    Mr. Arrington. That is correct.
    Mr. Lungren. Thank you, ma'am.
    Ms. Jackson Lee. The gentleman's time has expired.
    The chair will now recognize other members for questions 
they may wish to ask the witnesses. In accordance with our 
committee rules and practice, I will recognize members who were 
present at the start of the hearing, based on seniority on the 
subcommittee, alternating between majority and minority. And 
those members coming in later will be recognized in the order 
of their arrival.
    I do want to acknowledge the presence of Congressman Brown-
Waite of Florida. We thank her for being here.
    Mr. DeFazio for 5 minutes.
    Mr. DeFazio. Thank you, Madam Chair.
    Mr. Olsavsky, could you tell me, on the C-TPAT program, how 
many site visits have been conducted? What percent of the C-
TPAT certified carriers or brokers have been physically visited 
by U.S. agents in Mexico or Canada?
    Mr. Olsavsky. I am sorry, sir. I don't have that actual 
number with me, but we would be happy to--
    Mr. DeFazio. OK. It is not 100 percent. We know that, 
right?
    Mr. Olsavsky. That is correct.
    Mr. DeFazio. OK. And there is sometimes up to a 2-year 
lapse after someone files for C-TPAT, as I understand it, 
before they are actually visited? It could be 2 years?
    Mr. Olsavsky. Well, the time period has been shortened 
dramatically because of the hiring of a lot of--
    Mr. DeFazio. OK, so what are we down to now? A year?
    Mr. Olsavsky. I believe it is a year or less, sir, yes.
    Mr. DeFazio. OK. So I file the paperwork online; for a 
year, I am in sort of this privileged lane here and considered 
to be a lower risk. The committee has previously expressed 
concerns about that, and I would express that concern again.
    The advance information, how accurate is it? I don't know 
about land crossings, but I do know that sea-borne container 
cargo is allowed to modify their manifest up to 6 months after 
it arrives. So, admitting that they are totally inaccurate and 
worthless.
    What about the manifests for trucks coming across the 
border? Do they have to be accurate? Are they verified? Or are 
they allowed to, you know, file and amend them after the truck 
has already delivered its cargo somewhere in the U.S.?
    Mr. Olsavsky. They do have to be accurate, sir. And 
generally, because of the short time period within which to 
clear the cargo, the manifest as well as the entry for 
consumption are filed almost simultaneously. So often you will 
have both processes already have occurred by the time the truck 
arrives.
    Mr. DeFazio. OK. So, if you found discrepancies between a 
manifest and the cargo, what would you do with that truck?
    Mr. Olsavsky. The truck would be referred for a secondary 
inspection to verify the contents of the truck and to iron out 
or ascertain the depth of those discrepancies.
    Mr. DeFazio. But if there were significant discrepancies, 
would the truck be fined, impounded, or are they just allowed 
to amend at that point after they are searched?
    Mr. Olsavsky. Depending on the nature of the discrepancy, 
whether it is simply a trade violation versus contraband in the 
form of narcotics, there could be a simple fine, there could be 
a seizure effected, depending on the nature, if there was some 
criminal conspiracy associated with the discrepancy or if there 
was evidence of intent at the time the discrepancy was 
discovered based on the packaging of the material, evidence of 
a deliberate attempt to conceal the nature of what was in the 
truck.
    But generally, there would be either a fine or some harsher 
punishment, depending on the totality of the facts.
    Mr. DeFazio. In answer to an earlier question, I believe 
from the chairwoman, you were saying that, in terms of the 
persons entering the U.S. as truck drivers, that our checks on 
them are as accurate as the databases which we are using allow, 
and as much as they are credible and reliable.
    In the case of, in particular, this pilot program, 
beginning with Mexico, the commercial driver's licenses issued 
down there, the GAO has said that there are substantial 
questions about the credibility and inclusiveness of that 
database.
    Are you aware of that?
    Mr. Olsavsky. No, I am not, sir. But that is really an 
issue that would be best discussed with the Department of 
Transportation.
    Mr. DeFazio. Right, except that when they come to the 
border and they are presenting a Mexican commercial driver's 
license and you are checking the database to make certain that 
they are--I mean, isn't that what you use to check? What do you 
check at the border?
    When one of these pilot program Mexican trucks crosses the 
border and they present their Mexican driver's license, what 
would you use to verify that?
    Mr. Olsavsky. We generally use existing databases of 
information that are U.S. databases.
    Mr. DeFazio. So that person would not be in the database. 
So how, then, do we know who they are? Somehow the Department 
of Transportation is going to know but you won't?
    Mr. Olsavsky. Well, they have to present documentation that 
entitles them to enter, regardless of the driver's license 
information. They still have to prove that they are eligible to 
enter the country.
    Mr. DeFazio. And that would be?
    Mr. Olsavsky. That would be a passport or a border crossing 
card.
    Mr. DeFazio. OK. But if they have a passport and a driver's 
license, whether or not it is accurate, then they would just be 
issued one of these--the document you referred to, where they 
could stay up to 6 months potentially on a single-use entry or 
something like that?
    Mr. Olsavsky. Under the current process, the trucks are 
only allowed to proceed through the commercial zones, and they 
are not--
    Mr. DeFazio. Correct. I know that. But in the pilot 
program, I mean, I was a little concerned to hear that they may 
get up to 6 months. I mean, among all the many concerns we have 
about this pilot program, one is what is called cabotage, i.e., 
once that truck penetrates the border, what is to stop them 
from going point to point in the U.S. and providing, you know, 
a much cheaper service in violation of U.S. law?
    And if they have a valid 6-month--you know, why would we 
issue them something up to 6 months? I mean, shouldn't they 
estimate the time that they are in--they are only supposed to 
come in and go back out. I mean, don't you think we would have 
a new program that says, ``Well, the estimated time for your 
trip to New York and back is 8 days; you have 8 days''?
    I mean, if you give them 6 months, that truck is in the 
U.S.; there are 8 million trucks. How long is it going to be 
before someone notices it has been going back and forth between 
Chicago and Los Angeles for the last 4 months?
    Mr. Olsavsky. Well, I have two answers for you, sir.
    Number one, we do have the ability to issue them for a one-
time, one-purpose visit.
    On the other question, of the cabotage question, it is a 
matter of the driver is playing with fire in those situations. 
Because if we discover, at any point in time, that they have 
committed a violation of either the customs laws or immigration 
laws related to cabotage, that effectively makes them 
ineligible to function as a cross-border trucker. They would 
lose that opportunity and the ability to actually ply their 
trade and to earn a living.
    So they really would be playing with fire if they were to 
take that chance and to engage in cabotage, because they would 
effectively, if it is discovered, lose the opportunity to 
perform that function.
    Mr. DeFazio. OK, thank you.
    Thank you, Madam Chair.
    Ms. Jackson Lee. The gentleman's time has expired.
    I recognize Ms. Brown-Waite for 5 minutes.
    Ms. Brown-Waite. I thank the gentlelady.
    I believe that this question is for Mr. Olsavsky.
    And if I have mispronounced your name, please accept my 
apology.
    I am a little concerned about the fact that, if I 
understood you correctly, you collect part of a form when the 
truck driver leaves the United States. Is that correct?
    Mr. Olsavsky. The I-94 forms, yes, we would collect that.
    Ms. Brown-Waite. OK. Can you tell me how many truck drivers 
never went back over, let's say, the last year?
    Mr. Olsavsky. Well, generally those truckers who are 
involved in a cross-border trade within the commercial zones 
and who are doing drayage just back and forth on a daily basis, 
they are not issued I-94s because they have no intention of 
staying in the country for more than 72 hours.
    So we are relying on the crossing information that is 
presented to us via their entry, whenever they come in to the 
country.
    Ms. Brown-Waite. Well, then, the ones that you said could 
stay up to 6 months, of those, how many overstay? How many 
never turned in the other part of the form?
    Mr. Olsavsky. Well, at the present time, they are not 
authorized to travel beyond the commercial zones to operate a--
    Ms. Brown-Waite. OK, so it is in the--
    Mr. Olsavsky. The pilot hasn't begun, so they are not doing 
that. When the pilot does begin, they will be issued I-94s.
    Ms. Brown-Waite. And the penalty for not going back after 
the 6-month period, that is up to Immigration? Is that correct? 
Did I understand that correctly?
    Mr. Olsavsky. Well, Immigration and Customs Enforcement 
would investigate visa overstays--
    Ms. Brown-Waite. Right, OK.
    Mr. Olsavsky. --and try to intercept folks and interdict 
them.
    Ms. Brown-Waite. The other question that I have is on the 
Canadian and Mexican drivers hauling hazardous materials. How 
do you make sure that they have a comparable background check 
to that required of U.S. drivers?
    And also, one of the concerns originally about the Mexican 
trucks involved the environmental laws and are the trucks still 
up to the same standards. So, can you just run by exactly what 
you do, if anything, to make sure that those trucks are 
complying with U.S. standards?
    Mr. Olsavsky. Sure. In general, I will say that the safety 
of the trucks is really the responsibility of the Federal Motor 
Carrier Safety Administration, and they are deployed at ports 
of entry and they do inspect trucks as they come into the 
country.
    With regard to the environmental protection aspects and the 
emissions, that is really EPA's bailiwick. But I can tell you 
that whenever trucks and cargo enter the country, we do attempt 
to determine whether or not they are eligible or whether or not 
they comply with all applicable Federal regulations relative to 
their entry to the country.
    Ms. Brown-Waite. I appreciate it.
    And I yield back the balance of my time.
    Ms. Jackson Lee. I thank the gentlelady.
    I recognize the flight time of some of our witnesses.
    Mr. Ranking Member, I ask unanimous consent to yield myself 
2 minutes, 2 1/2 minutes. I have a final question that I wish 
to get in--
    Mr. Lungren. Mr. Cuellar?
    Ms. Jackson Lee. Yes, I am going to ask him in just a 
second, but I was just asking for unanimous consent for that 
after Mr. Cuellar.
    Mr. Cuellar, do you desire to ask any questions at this 
time?
    Mr. Cuellar. Not at this time.
    Ms. Jackson Lee. No? Thank you.
    I was going to yield to him.
    The reason that we have two panels is that we want to be 
balanced. And I look forward to the witnesses who will discuss 
some of the issues dealing with truckers, the industry, and 
certainly our favorite cities on the border, which we have 
great concern about.
    But let me just raise at least my concern. And I think we 
are going to have to fix it. I think there are a lot of answers 
given here that leads to a lot of frustration.
    I don't see the coordination, collaboration. I am not sure, 
in response to the question on sharing information, whether in 
fact CBP provides any information to ICE. And my understanding 
is that ICE is focused on illegal aliens and criminal 
activities and other issues. I am not sure whether they are 
even aware of the mountains of truckers who are coming in.
    We don't have the TWIC card in place. No one has indicated 
that they could use that document, prospectively, if we could 
get it to work.
    And I would say that I am unhappy about the answer about 
sharing information, ``We just use what data is given to us.'' 
And the border is key, and it is one of the key issues that we 
must confront in comprehensive immigration reform, both the 
northern and southern border.
    Let me just try to raise a question. There is a Highway 
Information Sharing and Analysis Center. There is a Homeland 
Security Information Network. I guess both are informational. 
And they have ways of sharing information with the highway 
industries.
    Does TSA and CBP work with these networks, ISAC and HSIN? 
Do you find them useful? What time of information is included 
in them? How does it impact you in the support of your cross-
border opportunities or responsibilities? And does the industry 
post information on these programs? Does the industry have 
access to these programs? And how do you confirm that industry 
is appropriately and effectively sharing this information that 
they may get?
    And that is one component. It is a long list of questions. 
Those that you can remember, if you can answer them to the best 
of your ability.
    But you need to come back again with sort of a more 
definitive response, which is either ``I don't know'' or ``We 
are working on it'' or maybe a more effective answer that says 
what happens to trucks once they go across, even if someone 
represents that they are here temporarily. We all represent 
matters that may not be factual. That means we have no follow-
up to the vast numbers of truckers who are coming across any of 
our borders, northern or southern.
    Mr. Arrington?
    Mr. Arrington. Thank you.
    Yes, we do work very closely with the Highway ISAC. In 
fact, the Highway ISAC, they are housed out at the 
transportation security operations center out in Herndon.
    The information received by the Highway ISAC is, in fact, 
shared with other components of TSA on a daily basis. It is a 
24/7 operation. The information that is coming in is a result 
of a very robust domain awareness program that we have in 
partnership or under cooperative agreement with ATA.
    Once the individuals are trained, and should they discover 
or see something suspicious in nature, it goes into a call 
center. It is treated as a trusted agent, if you will, as 
opposed to just routine information from a caller. That then 
goes into that intelligence center out at the TSOC, where that 
information is compared, it is analyzed, and it is pushed back 
out to those authorities that have jurisdiction and can, in 
fact, take action in that particular area.
    Additionally, we use that information and certainly that 
system, if you will, to communicate or collaborate back and 
forth with those truckers--the eyes and ears of our nation out 
on the highways.
    So it is a worthwhile program. It is working, and working 
well. And it is a collaborative effort between TSA and ATA.
    Ms. Jackson Lee. Is the data intelligence real-time? Do you 
turn it around quickly?
    Mr. Arrington. We turn it around very quickly, especially 
if there is an incident where we have--or an example, an 
incident involving a particular truck in the state of Texas. 
Then we found that that same truck was involved in an incident 
in the state of California. That information is then paired up 
and it is pushed back out to the proper authorities, where they 
can, in fact, take appropriate action.
    So it is, in fact, viewed as good, real intelligence, and 
it is, in fact, used and turned around in real-time.
    Ms. Jackson Lee. Mr. Olsavsky?
    Mr. Olsavsky. Madam Chairwoman, I will have to defer to our 
intelligence folks, and we will try to get you an answer to 
that question at a future date.
    Ms. Jackson Lee. Let me thank the witnesses at this time 
for their valuable testimony.
    Let me thank the members for your questions.
    Members of the subcommittee may have additional questions, 
and we will ask you to respond expeditiously in writing to 
those questions. In particular, for the Customs and Border 
Protection, we would like an extensive response to the question 
that I posed. I posed a number of sub-questions that I won't 
ask for a response at this time in detail. But it is extremely 
important, and I look forward to hearing back from you.
    At this time, the committee will move to the next panel.
    Gentlemen, thank you so very much for your presence here 
today and your testimony. Thank you again. And thank you for 
your service.
    Mr. Arrington. Thank you.
    Mr. Olsavsky. Thank you, Madam Chairwoman.
    Ms. Jackson Lee. Welcome. Thank you.
    At this time, I would like to welcome the second panel of 
witnesses.
    Our first witness will be Mr. Raul Salinas, mayor of 
Laredo, Texas. Mayor Salinas has 35 years of solid public 
service and, as the mayor of Laredo, understands the importance 
of our neighbor and friend to the south all while maintaining 
the safety and security of the U.S.-Mexico border.
    I will be yielding to my good friend and colleague from 
your great region, who has worked very hard on these border 
security issues. However, I would like to personally say that 
this introduction does not do you well in terms of the years of 
knowledge that you bring to being mayor as well as to this 
committee hearing today. Having had law enforcement experience, 
I have heard your testimony not only here in Washington but on 
the border. And it is important to note that you do not mince 
your words in your new responsibility of encouraging trade and 
commerce but also recognizing security.
    With that, Mr. Ranking Member, if you would allow me to 
yield to my good friend from Laredo, Texas, Congressman Henry 
Cuellar.
    Mr. Cuellar. Thank you, Madam Chair and members of the 
committee. I just wanted to make a presentation on behalf of 
the mayor.
    The mayor, as you know, actually started off here at the 
Capitol Police, so he served, working here, with us. He worked 
also as an aide to Congressman Kika de la Garza also. He was at 
the FBI for 27 years. Recently he served as legal attache there 
at the American embassy in Mexico City.
    Of course he is now the mayor of the city of Laredo, 
largest inland port that we have at the southern border, where 
he is trying to make sure that we find the right balance 
between security but at the same time not impede in trade and 
tourism.
    So, Madam Chair, thank you for inviting my hometown mayor.
    Ms. Jackson Lee. Our pleasure. And thank you, Congressman 
Cuellar, for those very instructive remarks for our committee.
    Our second witness is Mr. Gregg Ward, vice president of 
Detroit-Windsor Truck Ferry. Mr. Ward has been closely involved 
with border issues since 1988, when he and his father 
conceptualized and initiated the Detroit-Windsor Truck Ferry 
service. In addition, while operating the truck ferry, he has 
also been involved in several transportation and business 
development projects in North America, Europe and Asia.
    And it is our charge and challenge in this committee to 
recognize that there are two borders, probably more--there is a 
third border in the Caribbean--but certainly there are two 
borders: the southern border and the northern border.
    We thank you for your presence here today.
    The final witness of this panel is Mr. Stephen Russell, 
chairman and CEO of the Celadon Group. Mr. Russell is a member 
of the Executive Committee and a director of the American 
Trucking Association, as well as chairman of the Homeland 
Security Committee of the American Trucking Association.
    And we are very grateful that we have that voice here, as 
we try to construct the right kind of approach, both practical 
and legislative, to answer the concerns that we are raising 
today.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his statement for 5 
minutes, beginning with Mayor Salinas.
    And we welcome you to our committee.

      STATEMENT OF HON. RAUL SALINAS, MAYOR, LAREDO, TEXAS

    Mr. Salinas. Thank you very much, Madam Chair and Ranking 
Member and members of the committee. It is nice to be back 
home. It kind of makes me a little bit emotional. I used to 
patrol these floors. So it is really nice to be back home.
    I am here to deliver a very simple but important message: 
We must make our borders safe but not close them to trade and 
community. While the Nation must be dedicated to enhancing the 
security of our borders, that commitment must be made with a 
concurrent commitment to ensuring that our borders continue to 
operate efficiently in moving people and goods.
    In Laredo, Texas, we think that can be summed up in a 
simple statement: We need to build bridges, not walls.
    Laredo is at the center of the primary trade route 
connecting Canada, the United States and Mexico. Laredo and 
Nuevo Laredo, ``Los Dos Laredos,'' offer markets, business 
opportunities, and profit potential which business and industry 
simply cannot find anywhere else. We were the first official 
port of entry on the U.S.-Mexico border in 1851 and, today, are 
the largest customs district on the southern border.
    Today, Laredo handles more trade than all other ports on 
the southern border combined. Let me repeat that statement so 
that we can understand that this is not a typo. Laredo handles 
more trade than all other ports on the southern border 
combined.
    We are not only the largest southern port, we are the 
fourth-largest customs district in the United States. We move 
more products by truck and rail than all land and water ports 
in the United States, with the exceptions of New York, Los 
Angeles-Long Beach, and Detroit.
    While we are honored to be in their company, Laredo is one-
twenty-fifth the size of the smallest of these other MSAs. 
Also, unlike these other three ports and many others than 
handle far less freight than my community, Laredo is not 
entitled to any direct Federal funding under any of the 
Homeland Security programs.
    So how many trucks need to traverse Laredo to carry so much 
freight?
    According to the Laredo Development Foundation, whose 
statistics are attached to my testimony, last year there were 
more than 3 million trips through Laredo. Those numbers 
translate to 13,000 truck trips every business day travelling 
in one direction or the other through our city.
    Allow me to provide some kind of visual for you to 
understand just how many truck trips we are discussing. If you 
line up 13,000 trucks end to end, assuming a 70-foot length, it 
would equal to a convoy that is more than 172 miles. It would 
stretch from the Capitol, right here, to Trenton, New Jersey. 
And that is what we deal with every day.
    If you line up the 3 million truck trips between the two 
countries, it would be a convoy that would stretch just short 
of 45,000 miles. That would be the same as having a convoy that 
would circumnavigate the Equator just short of twice. That is a 
long two-lane highway.
    The 13,000 trucks have all the same problems as trucks in 
your community; it is just that there are so many more. That 
many fully loaded trucks add congestion to our streets, 
accelerate the erosion of our streets. And yet, we are not 
eligible for highway funds based upon their presence in our 
community.
    The job of releasing these trucks after they leave the 
customs zone is the responsibility of our police force, 
including whether the drivers are licensed and insured as well 
as whether the trucks are safe. Again, it is not that the 
trucks are any better or worse than the trucks you may find in 
your community. It is just that there are so many more, and our 
resources are rather limited.
    In addition to the number of trucks, we must also be 
concerned with what the trucks are carrying. There are the 
security concerns regarding illegal paraphernalia such as drugs 
and counterfeit goods. But there are also legal goods that may 
pose a threat to our community. My police department, fire and 
health department, must deal with these 13,000 daily potential 
threats once they leave customs.
    The level of HAZMAT training and equipment that may be 
found in our city is far greater than you would find in any 
city of comparable size because of the threats that we face on 
a daily basis.
    Yet today, under DHS programs, because the border is not a 
threat criterion and because our population does not meet the 
UASI threshold, Laredo can make no claim to direct Federal 
funding for this enhanced threat level, nor is Laredo being 
reimbursed for the services we provide for our nation.
    And while that may sound like an extraordinary number of 
trucks blocking Laredo's streets and polluting Laredo's air, 
unless we are able to obtain relief from ``at grade'' railroad 
crossings, trucks are preferable to trains in our community for 
moving freight. For while trucks may slow down traffic, trains 
requiring inspections split the city in half, requiring our 
city's first responders to have standing contingency plans for 
ambulance and fire response, as there are times that you cannot 
physically get to the closest hospital or have the closest fire 
station respond because a train has bifurcated the city.
    With all the years of my service--
    Ms. Jackson Lee. Mayor? Are you almost wrapping--
    Mr. Salinas. I am going to, yes.
    Let me give you just four simple ideas on how we feel you 
might be able to help us with national security issues in our 
city.
    Port grants must be available to land ports. If there is a 
threat from freight, then we are the fourth-largest threat, yet 
not eligible for any funding.
    Prioritize international bridges in national asset 
database. Should the port of Laredo be closed for any reason, 
the national economies of both Mexico and the United States 
would feel the impact in a day, perhaps as soon as 2 hours 
after closing.
    UASI criteria must include border communities that serve as 
the nation's first responders.
    These are just a few ideas on how the committee may provide 
leadership on the issue of border security while enhancing 
economic development. There are other ideas that you have in 
our testimony.
    I thank you. I ask for your assistance and know that, in 
Laredo, ``su casa es mi casa,'' ``su casa, mi casa.'' Gracias.
    [The statement of Mr. Salinas follows:]

   Prepared Statement of the Honorable Raul Salinas, Mayor, City of 
                             Laredo, Texas

1. INTRODUCTION
    Chairwoman Jackson-Lee, Ranking Member Lungren and Members of the 
Subcommittee, good afternoon. I am Raul Salinas, the mayor of Laredo, 
Texas.
    It was a great honor for me last summer, as one of my first 
official duties as the Mayor of Laredo, to welcome a delegation of the 
United States Congress, including Chairwoman Jackson-Lee, to Laredo for 
a hearing on border security. Madam Chair, we were honored to have you 
in Laredo and we are grateful that you heard our plea that border 
communities be involved in border policy debates. As I said then, while 
the issue of border security is of national significance, for us on the 
border, border security means a safe and operational border.
    Before offering my testimony, you will all forgive me if I brag 
just a little about our hometown hero, your colleague, Congressman 
Cuellar. We could not be more proud of his leadership here in Congress 
as a subcommittee chair of the Homeland Security Committee.
    I would also like to share with the Subcommittee that my first two 
jobs as an adult were here in Washington. I was a legislative aide to 
Representative Kika de la Garza and later joined the Capitol Hill 
Police Force while earning my degree at Maryland. After graduating from 
Maryland, I also graduated from the Capitol Police Department to a 
career in the FBI, the last five years of which were spent as an 
attache in Mexico City. You can only imagine how much pride I take in 
testifying today on behalf of my adopted home, in the city that gave me 
my professional start.

2. LOS DOS LAREDOS AND THE ROLE WE PLAY ON THE BORDER
    Madam Chair, I am here to deliver a very simple, but important 
message. We must make our borders safe, but not close them to trade and 
community. While the nation must be dedicated to enhancing the security 
of our borders, that commitment must be made with a concurrent 
commitment to ensuring that our borders continue to operate efficiently 
in moving people and goods. In Laredo we think that can be summoned up 
in a simple statement. We need to build bridges, not walls.
    Laredo is at the center of the primary trade route connecting 
Canada, the United States and Mexico. Laredo and Nuevo Laredo, ``Los 
Dos Laredos'' offer markets, business opportunities and profit 
potential which business and industry simply cannot find anywhere else. 
We were the first ``official'' Port of Entry on the U.S./Mexico border 
in 1851 and today are the largest Customs District on the Southern 
Border. Today, Laredo handles more trade than all the other ports on 
the southern border combined. Let me repeat that statement so that you 
understand that it is not a typo. Laredo handles more trade than all 
the other ports on the southern border combined.
    We are not only the largest southern port; we are the 4th largest 
Customs District in the United States. We move more products by truck 
and rail than all the land and water ports in the United States with 
the exceptions of New York, Los Angles-Long Beach and Detroit. While we 
are honored to be in their company, Laredo is 1/25th the size of the 
smallest of these other MSAs. Also, unlike these other three ports, and 
many others that handle far less freight than my community, Laredo is 
not entitled to any direct federal funding under any of Homeland 
Security program.

3. TRENTON TO THE CAPITOL BUILDING EVERY DAY
    So how many trucks need to traverse Laredo to carry that much 
fright?
    According to the Laredo Development Foundation, whose statistics 
are attached to my testimony, last year more than 1 million LOADED 
trucks traveled northbound from Mexico into the US, and more than 1.2 
million LOADED trucks traveled from the US into Mexico. The total 
number of truck trips is estimated at just over 3 million trips, as not 
all trucks are LOADED. Those numbers translate into 13,000 truck trips 
every business day traveling in one direction or the other through my 
city.
    Allow me to provide some kind of visual for you to understand just 
how many trucks trips we are discussing. If you line the 13,000 trucks 
end to end, assuming a 70 foot length, it would equal a convoy that is 
more than 172 miles long. It would stretch from the Capitol building to 
Trenton, New Jersey. And that is what we deal with every day. If you 
line up the 3 million truck trips between the two countries, it would 
be a convoy that would stretch just short of 45,000 miles. That would 
be the same as having a convoy that would circumnavigate the equator 
just short of twice. That's a long 2 lane highway.

4. THE NUMBERS ARE AN ISSUE
    These 13,000 trucks have all the same problems as trucks in your 
community, its just that there are so many more. That many fully loaded 
trucks add congestion to our streets, accelerate the erosion of our 
streets, and yet we are not eligible for highway funds based upon their 
presence in our community.
    The job of policing these trucks after they leave the customs zone 
is the responsibility of my police force, including whether the drivers 
are licensed and insured as well as whether the trucks are safe. Again, 
it's not that these trucks are any better or worse than the trucks you 
find in your communities; it's just that there are so many more and our 
resources are so limited.
    In addition to the number of trucks, we must also be concerned with 
what the trucks are carrying. There are the security concerns regarding 
illegal paraphernalia such as drugs and counterfeit goods. But there 
are also legal goods that also pose a threat to my community. My 
police, fire and health department must deal with these 13,000 daily 
potential threats once they leave customs. The level of hazmat training 
and equipment that may be found in my city is far greater than you will 
find in any city of comparable size because of the threats we face on a 
daily basis. Yet, today, under DHS programs, because the border is not 
a threat criterion, and because our population does not meet the UASI 
threshold, Laredo can make no claim to direct federal funding for this 
enhanced threat level. Nor is Laredo being reimbursed for the services 
we provide to the nation.
    And while that may sound like an extraordinary number of trucks 
blocking Laredo streets, and polluting Laredo's air--unless we are able 
to obtain relief from ``at grade'' railroad crossings, trucks are 
preferable to trains for in my community for moving freight. For while 
trucks may slow down traffic, trains requiring inspections split the 
city in half requiring my first responders to have standing contingency 
plans for ambulance runs and fire response as there are times you 
cannot physically get to the closest hospital or have the closest fire 
station respond because a train has bifurcated the city..

5. THE NEED FOR LOCAL INPUT
    While I was asked to focus my testimony on the issue of cross 
border freight shipments, I would like to take a moment to reiterate 
our most fervent wish. As Congress seeks solutions to border issues, it 
is best to do so in consultation with the officials on the border that 
will have to live with the decisions you make. More importantly, it is 
the local government officials and our professional staffs that will be 
your allies in achieving the shared mission of border security.
    For instance, the mission statement for Laredo's four bridges 
reflects this balancing act. In Laredo we seek ``To Serve as the most 
convenient and safe crossing point for all citizens and tourists of 
both U.S. and Mexico, as well as to facilitate the crossing of all 
freight and import-export trade that utilizes the Port of Laredo.''

6. SUGGESTED STEPS
    With all my years of service to homeland security, I feel very 
confident that my credibility is sufficient to state that this nation 
can be safer without closing or slowing our borders. Let me give you 
but four simple ideas of how the Congress might enhance national 
security here in Laredo while promoting efficient borders.

        <bullet> Port Grants Must be Available to Land Ports
                Just yesterday the Department of Homeland Security 
                announced a new round of funding availability for port 
                security. As I explained above, Laredo is the nation's 
                largest inland port and is number 4 in terms of freight 
                moved for all ports, land or sea. Still, Laredo does 
                not qualify for this port funding because we are not a 
                seaport. The Committee would provide great leadership 
                in helping address this shortcoming. I am sure my 
                colleagues in Detroit and Buffalo would concur with my 
                pleas for assistance.

        <bullet> Prioritize International Bridges in National Asset 
        Database
                According to the Congressional Research Service, ``The 
                Office of Infrastructure Protection (OIP) in the 
                Department of Homeland Security (DHS) has been 
                developing and maintaining a National Asset Database. 
                The Database contains information on over 77,000 
                individual assets, ranging from dams, hazardous 
                materials sites, and nuclear power plants to local 
                festivals, petting zoos, and sporting good stores.'' It 
                is Laredo's understanding that with just in time 
                inventories, should the port of Laredo be closed for 
                any reason, the national economies of both Mexico and 
                the United States would feel the impact in a day, 
                perhaps as soon as 2 hours of closing.

        UASI Criteria to Include Border Communities
                The Department of Homeland Security has created the 
                Urban Area Security Initiative (UASI) program with the 
                stated goal of making grants for law enforcement 
                terrorism prevention efforts. The grants also seek to 
                enhance fire departments' response to terrorism and 
                other major incidents. The criterion for funding used 
                by the DHS, however, has failed to recognize what this 
                Committee already knows--Investments made in border 
                communities may be the best investments the nation an 
                make. Because of the current criteria, Laredo has never 
                been a direct recipient of UASI funds. We would welcome 
                this Committee's leadership in seeking to amend the 
                funding formulae of UASI programs.

        <bullet> Have Federal Government Bear Fair Share of Border 
        Service
                Recognize the benefits derived by creating a border 
                port entry are not limited to the port itself; the 
                entire country benefits as well. Congress should reject 
                a recent any initiatives to require local entities to 
                construct and donate to the General Service 
                Administration (GSA), the federal facilities at new 
                border ports of entry.

        .<bullet> Fund COPS and Provide Emphasis on Border
                With the assistance of the U.S. Department of Justice 
                COPS program, the Laredo Police Department has hired 
                approximately 155 police officers to focus on community 
                policing issues, which many times are in fact border 
                security issues. The added personnel have enabled the 
                LPD to implement the philosophy at a citywide level and 
                establish the foundation of COPS. The COPS program has 
                been under funded or subject to ear mark only 
                appropriation for the last number of years and Laredo 
                has not been a continuing beneficiary, despite our 
                ongoing service to the nation.

        <bullet> U.S./Mexico Border Health Region with Dedicated Funds
                While I am very proud of the Federal, state and local 
                law enforcement officers on the border, there are times 
                that I believe the most important homeland security 
                officer on the border may be Dr. Hector Gonzalez, the 
                head of the City of Laredo's health department. When 
                Washington was caught in the gripe of the anthrax 
                scare, our Health Department was asked to examine 
                envelopes with powdery substances from both sides of 
                the border. We had the SARs threat in Laredo, and I 
                fear that next major biological threat will also be 
                addressed here. Yet, it is the citizens of Laredo alone 
                that fund Dr. Gonzalez' efforts. This Committee's 
                leadership to create a U.S. Mexico Border health 
                resources program to address public health, emerging 
                disease control and prevention services would be of 
                great service to the nation.
    These are just a few of our ideas on how the Committee may provide 
leadership on the issue of border security while enhancing economic 
development.
    Thank you for your time and I look forward to the discussion.

    Ms. Jackson Lee. Mayor, thank you for a very instructive 
testimony and your presence here today.
    Mr. Salinas. Thank you.
    Ms. Jackson Lee. I now recognize Mr. Ward, with Detroit-
Windsor Truck Ferry, to summarize your statement in 5 minutes. 
Mr. Ward, thank you.

  STATATEMENT GREGG M. WARD, VICE PRESIDENT, DETROIT-WINDSOR 
                          TRUCK FERRY

    Mr. Ward. Thank you. I won't be speaking French Canadian to 
echo what the mayor has said.
    [Laughter.]
    But thank you very much for the opportunity to present 
today.
    I agree with what the mayor said about building bridges and 
its importance. And I think that is a big part of the security 
question of trucks crossing the border. It is not just having 
more bridges, but it is having safe and efficient bridges.
    And I think today--and I am speaking for the Detroit area, 
the busiest commercial crossing area in North America--there 
isn't consistent enforcement authority at our bridges and 
tunnels and truck ferries.
    There are private ownership questions, which I think really 
impact the ability of government to enforce laws and therefore 
keep our borders safe.
    I think it is necessary that we have a very consistent 
enforcement policy at our border and at any new bridges. And I 
think there is an opportunity, with all the discussions of new 
bridges being built--there are a couple in the U.S.-Canada 
border, one in Detroit being considered, one in the New York 
area being considered.
    And I think it is very important for this committee to 
reflect on what the Canadian government has done, with the 
International Bridges and Tunnels Act, which gives the 
government, for the first time, absolute control and authority 
over the border.
    As a small example, after 9/11, our company--we transport 
hazardous materials across the border. We have never received 
any vetting from government of who we are, what other 
businesses we are involved in, where we get our financing, who 
owns our company. And I think that is wrong, I think that is 
dangerous.
    And I think we need more attention paid to our border 
crossings. And at every border crossing, we ought to be 
transparent, no matter if it is privately owned, if it is owned 
by a commission, or if it is owned by government.
    Thank you.
    [The statement of Mr. Ward follows:]

                  Prepared Statement of Gregg M. Ward

    Chair Jackson-Lee and members of the Subcommittee, thank you for 
allowing me to testify today. My name is Gregg Ward, Vice President of 
the Detroit-Windsor Truck Ferry.
    At the northern border of the United States, the efficient movement 
of cross border trucks is essential to our manufacturing base and 
economic prosperity. With consistent and transparent border safety and 
security measures in place at all international crossings, rules and 
regulations are uniformly enforced. This immediately and significantly 
reduces threats posed by these international trucks.
    On Earth Day 1990 the Detroit-Windsor Truck Ferry service was 
started by my father and me. We chose this start-up date 16 years ago 
to symbolize our commitment to environmental stewardship and a belief 
that marine transportation can reduce highway congestion, air pollution 
and the consumption of finite fossil fuels. The company operates a 
border crossing between Detroit, Michigan and Windsor, Ontario. In 
about 20 minutes, using a flat deck barge and a tugboat, up to eight 
trucks roll-on, cross the river and roll-off again on the other side. 
We transport hazardous material laden trucks that are restricted by US 
regulations from crossing the Ambassador Bridge and the Detroit-Canada 
Tunnel.\1\ The alternative route requires a detour of 165 miles. 
Hazardous materials crossing our facilities include flammables, acids, 
radioactive materials and explosives. We also move trucks too large or 
heavy for the other crossings.
---------------------------------------------------------------------------
    \1\ US 49 CFR 397.67 (a) it states, ``a motor carrier transporting 
NRHM (Non Radioactive Hazardous Materials) shall comply with NRHM 
routing designation of a State.'' The State of Michigan NRHM Restricted 
Routes specifically has restrictions at the Ambassador Bridge and 
Detroit-Canada Tunnel for all materials that are explosive, flammable, 
radioactive and corrosive. http://hazmat.fmcsa.dot.gov/nhmrr/
index.asp?page=route.
---------------------------------------------------------------------------
    At times of significant congestion at the bridge, we provide surge 
capacity to trucks carrying critical automotive freight. September 11 
proved the value of redundancy in cross-border transportation options. 
The merit of a cross border marine link was evident by the success of 
the Detroit-Windsor Truck Ferry in helping to avert post 9/11 plant 
closing of a major automotive assembly operation. General Motors, in a 
letter to US Customs following September 11, stated, ``The Detroit-
Windsor Truck Ferry became our only alternative that would enable 
General Motors to continue operation of the Detroit/Hamtramck Assembly 
Plant.'' \2\
---------------------------------------------------------------------------
    \2\ Letter from General Motors, Assembly Plant Manager to US 
Customs Port Director. September 17, 2001.
---------------------------------------------------------------------------
    With regard to risks posed by cross border trucking, I make my 
comments specific to Detroit where close to $300 million in daily just-
in-time deliveries move by truck through the region. The integrated US 
and Canadian auto industry is heavily dependent on sufficient capacity 
at the privately owned and operated Ambassador Bridge in Detroit. Every 
day, this industry sends thousands of cross-border truck shipments 
across this border. Assembly plants creating hundreds of thousands of 
jobs in Michigan as well as many other US states and Ontario rely on 
the just-in-time delivery of automotive parts.\3\
---------------------------------------------------------------------------
    \3\ June 4, 2007 Ontario Chamber of Commerce and Detroit Regional 
Chamber letter to Senator Alan Cropsey, Majority Floor Leader, State of 
Michigan.
---------------------------------------------------------------------------
    It has been said that ``one well-placed bomb here could have a more 
devastating effect on both the United States and Canada than the 
destruction of the World Trade Center. Simply put, there is no 
substitute for the Ambassador Bridge.'' \4\
---------------------------------------------------------------------------
    \4\ Uncovered bridge. By Jack Lessenberry. MetroTimes, March 7, 
2007
---------------------------------------------------------------------------
    With over 9,000 trucks and 15,000 passenger cars crossing it each 
day,\5\ the Ambassador Bridge is a symbolic and economic target for 
those who wish our nation harm. The chairman of a National Defense and 
Security Committee in Canada has said ``the Ambassador Bridge is the 
``best target'' in Canada for terrorists looking to cripple the 
country's economy.'' \6\\7\ I believe it undeniably has the same 
devastating target value for those who would harm the United States.
---------------------------------------------------------------------------
    \5\ BTOA Traffic Figures for 2006.
    \6\ Ambassador Bridge `plum' terror target: Attack would cripple 
economy, senator says. By Dave Battagello, Windsor Star, March 24, 
2005.
    \7\ Bridge OKs risky cargo, Letter of permission given to chemical 
company. By Doug Schmidt, Windsor Star, April 12, 2006.
---------------------------------------------------------------------------
    The loss of the Ambassador Bridge because of a terrorist action, 
serious accident or natural disaster would have a crippling, cascading 
effect on our national economy.
    The Department of Homeland Security national strategy to prevent, 
protect and respond to all hazards is integrally linked to the word 
``recovery.'' Moreover, in many respects ``recovery'' is linked to the 
resiliency of our cross border transportation system.
    When a section of the Washington Beltway closes, traffic snarls and 
delays abound, but the system continues to operate through the use of 
secondary roads that absorb the temporary excess traffic demand. If the 
Ambassador Bridge closes, no such relief valve exists. US bound freight 
would have to divert 100 miles to the international bridge crossing in 
Sarnia, Ontario or 250 miles to Fort Erie, Ontario--just to enter the 
United States. The just-in-time system manufacturers rely upon would 
collapse within hours.
    Notwithstanding its importance, the US Federal Highway 
Administration and the state of Michigan do not physically inspect the 
Ambassador Bridge.\8\ They are told by private owners of the Ambassador 
Bridge (Detroit International Bridge Corporation) that government has 
no such authority.\9\
---------------------------------------------------------------------------
    \8\ Private Bridge on Canada Border a Security Concern. By Pam 
Fessler, National Public Radio, Morning Edition, May 21, 2007.
    \9\ The Troll Under the Bridge. By Stephane Fitch and Joann Muller, 
Forbes, November 15, 2004.
---------------------------------------------------------------------------
    A bridge company official said, ``The 1920s legislation that gave 
Detroit International its charter entrusted the bridge with a level of 
authority tantamount to a public utility's, so it has a prerogative to 
behave differently from other companies.'' \10\
---------------------------------------------------------------------------
    \10\ Matty Moroun Beat Buffett in Bridge Deal, May Lose Monopoly. 
By John Lippert and Erik Schatzker, Bloomberg Markets magazine, January 
22, 2003.
---------------------------------------------------------------------------
    The bridge owner ``won't release maintenance records and refuses to 
let law enforcement officials onto the bridge to nab trucks that could 
be carrying explosives, toxic waste or other materials banned by law 
from crossing the bridge.'' \11\
---------------------------------------------------------------------------
    \11\ Billionaire's Bridge. By Kenneth Kidd, Toronto Star, November 
13, 2005.
---------------------------------------------------------------------------
    Manuel ``Matty'' Moroun's habit of snubbing the United States and 
Canadian governments' efforts to control and regulate his bridge goes 
back decades. The Economist in 1980 expressed outrage at the company's 
``cavalier behavior'' when Moroun told the Canadians they had no right 
to review his purchase of the international bridge.\12\
---------------------------------------------------------------------------
    \12\ Bridges to Understand, World Business, The Economist, March 
22, 1980.
---------------------------------------------------------------------------
    In November 2001, Moroun startled GSA and Detroit officials by 
starting construction on four new Customs booths--without Goods and 
Services Administration approval. The city of Detroit sued him, arguing 
he needed building and zoning permits. Moroun's attorneys insisted 
local laws didn't apply because the bridge, since it handles cross-
border commerce is a ``federal instrumentality.''
    The city of Detroit attorney who prosecuted the city's complaint 
said, ``You can't have it both ways. You can't claim you're immune from 
regulation because you're a federal instrumentality and then, at the 
same time, tell the federal government to go to hell.'' \13\
---------------------------------------------------------------------------
    \13\ The Troll Under the Bridge. By Stephane Fitch and Joann 
Muller, Forbes, November 15, 2004.
---------------------------------------------------------------------------
    Openly ignoring the Federal Motor Carrier Safety Administration 
National Hazardous Material Route Registry, Moroun allowed restricted 
gasoline tankers from Canada to cross his bridge after September 11, 
2001. These trucks were destined for the bridge owner's duty free 
complex at the foot of the bridge.
    Michigan State Police said ``Even though the bridge is a private 
structure, Michigan Department of Transportation says that it is a 
restricted route and those items cannot cross.'' The President of the 
bridge company responded, ``We don't believe the state has the 
authority to determine what crosses a private piece of property.'' \14\
---------------------------------------------------------------------------
    \14\ Hazmat Trucks On Bridge Leads to Crackdown. Local 4 
Investigation Uncovers Suspect Hauling Practice. January 10, 2002
---------------------------------------------------------------------------
    In my February 15, 2007 testimony before the Subcommittee on Coast 
Guard and Maritime Transportation, Committee on Transportation and 
Infrastructure, the issue of ongoing illegal transportation of 
hazardous materials across the Ambassador Bridge and the risk to our 
national transportation system is extensively documented.\15\
---------------------------------------------------------------------------
    \15\ February 15, 2007 testimony before the Subcommittee on Coast 
Guard and Maritime Transportation, Committee on Transportation and 
Infrastructure, pages 6--8 and Attachments A--G.
---------------------------------------------------------------------------
    In May 2007, National Public Radio exposed how trucks are allowed 
to park directly under the Ambassador Bridge after paying a toll, 
allowing the driver to walk to the duty free store located several 
hundred feet away. According to the report, ``A spokesman for the 
Federal Highway Administration says his agency has raised concerns 
about the trucks with Moroun, but it doesn't have jurisdiction. Neither 
does the federal agency that oversees the transportation of hazardous 
materials. Nor does the Coast Guard. Nor does the Michigan State 
Police.'' \16\
---------------------------------------------------------------------------
    \16\ Private Bridge on Canada Border a Security Concern. By Pam 
Fessler, National Public Radio, Morning Edition, May 21, 2007.
---------------------------------------------------------------------------
    The failure of government to make safety and security decisions at 
the privately owned Ambassador Bridge is an invitation to terrorists to 
disable it. But large fuel storage tanks are buried in the ground 
adjacent to the Ambassador Bridge. They are there today. Imagine 13,000 
gallon fuel tankers parking directly under the bridge to replenish the 
storage tanks. This happens on a regular basis and the government seems 
powerless to stop it.
    [Information follows:]

                                Figure 1
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                Figure 2

    The tanker that exploded in April 2007 and caused an intense fire 
melting steel girders and bolts supporting a Bay Area bridge ramp had 
only 8,600 gallons of gasoline and no fuel storage tanks below it.
    Until recently the Canadian government had no clear authority to 
regulate matters concerning approvals for the constructing new, or 
altering existing, international bridges or tunnels; approvals for 
changes in ownership, operation or control; and issues about 
maintenance, operations, safety and security.
    To resolve this problem, the Canadian government recently enacted 
the International Bridge and Tunnels Act. This legislation provides the 
federal government with legislative authority to ensure effective 
oversight of the existing 24 international vehicular bridges and 
tunnels and nine international railway bridges and tunnels, as well as 
any new international bridges or tunnels built in the future. The 
Minister, through the governor-in-council, has the power to regulate 
the safety, security, operation and use of international bridges and 
tunnels. The Minister will have the authority to issue an emergency 
directive in response to a threat to the safety or security of any 
international bridge or tunnel. To help protect the safety, security 
and efficiency of the transportation system, Ministerial approval will 
be required for transactions that result in changes in ownership or the 
operation of any international bridge or tunnel.
    This determined Canadian action contrasts with the United States, 
where there is no similar authority or oversight in respect of 
privately owned international border crossings. This endangers our 
national security. Even after September 11, 2001, our company, a 
transporter of dangerous cargoes across the border, has never been 
formally interviewed about how we finance operations, who beneficially 
owns our company or what other companies do we control and operate.
    As these questions have not been asked of our company, it is 
reasonable to conclude that there has not been any vetting of other 
privately owned border crossings.
    I submit that this Subcommittee should consider the dire national 
consequences of leaving our federal law enforcement agencies without 
clearly defined legislative authority to control our international 
borders and regulate the flow of trucking at crucial border crossings.
    Our northern frontier needs to remain accessible to trucking, safe 
and secure. By strengthening government oversight and providing uniform 
controls at the border, the risks posed by cross-border trucks can be 
mitigated, efficiency of movement improved and the vitality of our 
trading nation protected.
    Thank you for this opportunity to provide testimony.

    Ms. Jackson Lee. You have provoked us to want to ask you 
questions right away. But we thank you so very much for your 
testimony today.
    And I now recognize Mr. Russell to summarize his statement 
for 5 minutes.

STATEMENT OF STEPHEN RUSSELL, CHAIRMAN AND CEO, CELADON GROUP, 
      INC., ON BEHALF OF THE AMERICAN TRUCKING ASSOCIATION

    Mr. Russell. Thank you, Madam Chair and members of the 
committee. My name is Steve Russell, and I am chairman and CEO 
of Celadon Group, headquartered in Indianapolis. I actually 
founded the company 22 years ago.
    Celadon is a truckload carrier, with approximately 2,900 
power units, 8,000 trailers and 4,000 employees. We are a U.S. 
trucking company that provides transportation services within 
the U.S., as well as to Canada and Mexico.
    Celadon was the first motor carrier approved to participate 
in both Customs-Trade Partnership Against Terrorism, C-TPAT, 
and we were also the first company to be approved for the 
Automated Commercial Environment, or ACE. In addition, 100 
percent of our drivers have been trained under Highway Watch 
security and safety awareness.
    Today I am appearing also on behalf of the American 
Trucking Associations, or the ATA. And I commend the 
Subcommittee on Transportation Security and Infrastructure 
Protection for holding this hearing.
    There is no doubt that securing our nation's borders is 
essential to our national security interests. I would also add 
that the efficient and effective flow of legitimate cargo 
across our land borders is vitally important to our nation's 
well-being.
    The trucking industry has worked with government agencies 
and other economic sectors to establish security programs that 
accomplish the goal of increasing security while improving 
trade facilitation. The trucking industry plays a critical link 
with America's two largest trading partners, transporting 
almost 70 percent of the value of surface trade with Canada and 
about 83 percent of the value between U.S. and Mexico.
    Security has long been a part of cross-border trucking 
operations with Canada and Mexico, even before 9/11. In 1998, 
the then-U.S. Customs Service established the Land Border 
Carrier Initiative to process low-risk cargo, carriers and 
drivers more efficiently, while focusing the agency's 
enforcement resources on higher-risk operations.
    After 9/11, C-TPAT was developed jointly by government and 
industry, establishing a more robust and comprehensive security 
program for U.S. imports around the globe. I strongly believe 
that the C-TPAT program is an excellent model for ensuring the 
security of the international supply chain.
    Importers, motor carriers, customs brokers, and foreign 
manufacturers all have to comply with the security standards in 
order to participate in C-TPAT. Time and money have to be 
invested to develop security processes and systems for 
compliance with C-TPAT, which are verified by CBP.
    The FAST program was developed by U.S., Canada and Mexico 
to provide C-TPAT members access to FAST lanes at our borders. 
The FAST program also requires commercial drivers to undergo a 
thorough background check in order to obtain FAST cards to 
access these lanes.
    I encourage members of this committee to work with other 
relevant congressional committees to look at ways to accelerate 
the development of FAST lanes at border crossing points of 
entry. And I also encourage members to continue supporting C-
TPAT and FAST programs, which have created security 
consciousness within the cross-border trucking industry.
    Another key tool for improving border security is ACE, 
which is now being fully deployed on our land border ports of 
entry. ACE includes an electronic manifest which allows CBP to 
collect information, target and do risk analysis on U.S. 
imports and members of the trade community.
    Lastly, industry and government must work together to 
improve information collection and sharing mechanisms and 
eliminate the burden of repetitive data entry from multiple 
agencies in all three countries. Doing so will improve the 
competitiveness in North America and also improve our security.
    I thank you for your attention. I would be happy to answer 
any questions.
    [The statement of Mr. Russell follows:]

                 Prepared Statement of Stephen Russell

Introduction
    Madame Chair and members of the Subcommittee, my name is Steve 
Russell, and I am Chairman and CEO of Celadon Group, Inc., 
headquartered in Indianapolis, Indiana. Celadon is a truckload carrier 
with approximately 2,900 power units, 8,000 trailers and 4000 
employees. Celadon is one of the top truckload carriers in North 
America serving a variety of customers providing time-sensitive cargo 
shipments through trailer door-to-door transport in and between any of 
the NAFTA countries. We have built Celadon on industry leadership in 
Safety, Technology, Service and Security.
    Celadon is a certified and validated member of the Customs--Trade 
Partnership Against Terrorism (``C-TPAT'') program, and we were the 
first motor carrier approved for participation in the Automated 
Commercial Environment's electronic manifest system. Both of these 
programs, as described further below, play an important role in 
improving the security of international commerce at our land borders. 
In the domestic arena, Celadon, including 100 percent of its 
professional drivers, participates in the Highway Watch<SUP>'</SUP> 
program, a joint ATA and U.S. Department of Homeland Security (``DHS'') 
initiative with the goals of increasing the overall security of our 
highways and roads. Because Celadon transports hazardous materials, we 
are also compliant with U.S. Department of Transportation (``DOT'') 
requirements under HM-232 for developing security plans and training to 
transport such commodities.
    In addition, Celadon is an ISO 9001 certified company and plays an 
integral role in our customers' supply chain management process as we 
service a variety of high-intensity production lines, distribution 
channels, and customer direct traffic. In addition, we were awarded 
back-to-back 1st Place finishes by the Truckload Carriers Association 
for its 2005 and 2004 National Fleet Safety Award among carriers 
hauling over 100 million miles per year.
    Today I am also here on behalf of the American Trucking 
Associations, Inc. (``ATA''), a federation of motor carriers, state 
trucking associations, and national trucking conferences created to 
promote and protect the interests of the trucking industry. ATA's 
membership includes more than 2,000 trucking companies and industry 
suppliers of equipment and services. Directly and through its 
affiliated organizations, ATA encompasses over 37,000 companies and 
every type and class of motor carrier operation.
    I commend the Subcommittee on Transportation Security and 
Infrastructure Protection of the U.S. House of Representatives for 
holding this hearing to gather information regarding border security. 
The trucking industry supports efforts to address and eliminate to the 
greatest extent possible any threats posed by terrorists to our 
nation's security, including developing strong cross-border security 
programs.
        These comments focus on three primary areas in relation to 
        border security:
        <bullet> Ongoing security programs involving trucking 
        operations across our borders with Canada and Mexico to ensure 
        supply chain security;
        <bullet> Implementing automated systems to improve the 
        gathering and analysis of data for targeting and release of 
        cargo, people, and equipment entering the U.S.; and,
        <bullet> Strengthening the relationships among the three North 
        American governments to develop joint border infrastructure and 
        improve information sharing mechanisms.

Background
    Trucking is a critical component of the United States' economic 
strength, with 9 billion tons of freight transported by inter-city and 
local trucks, representing 68% of the total domestic tonnage shipped. 
The trucking industry generates revenues of $610 billion annually, 
equaling almost 5% of our Gross Domestic Product, and a figure that 
represents nearly 87% of all revenues generated by our nation's freight 
transportation industry.\1\ Our nation's transportation infrastructure, 
in particular the highway system, provides the opportunity for the 
trucking industry to play such a large and important role in the U.S. 
economy. The protection and improvement of our country's existing 
infrastructure will help ensure a strong and vibrant economy both now 
and in the future.
---------------------------------------------------------------------------
    \1\ American Trucking Associations; American Trucking Trends; 
(2006)
---------------------------------------------------------------------------
    The trucking industry also plays a critical link in the economic 
interdependency among the United States, Canada and Mexico, moving 
almost 70 percent of the value of freight between the United States and 
Canada, and about 83 percent of the value of U.S.-Mexico freight.\2\ 
The increasing trade volumes that have been generated among the three 
North American Free Trade Agreement (``NAFTA'') partners have 
demonstrated the success of the largest trading block in the world. Not 
only have companies such as retailers and manufacturers throughout 
North America been able to diversify, expand and improve their ability 
to grow their businesses, but this agreement has provided access to new 
markets to goods and services produced in the U.S. The trucking 
industry is proud of its primary role in delivering these growing trade 
volumes. According to U.S. government data, in 2006 7 million trucks 
entered the U.S. from Canada, while 4.2 million entered from Mexico, 
resulting in more than 14 million truck crossings a year on the 
northern border, and more than 8 million crossings on the U.S. southern 
border.\3\
---------------------------------------------------------------------------
    \2\ Bureau of Transportation Statistics, U.S. Department of 
Transportation (2006)
    \3\ Ibid.
---------------------------------------------------------------------------
    In the wake of the September 11 attacks, the U.S. trucking industry 
has worked diligently to support our nation's goals of keeping our 
country and our economy moving forward. As part of our efforts, these 
comments will focus on initiatives the trucking industry is 
participating in to improve the security of both domestic and 
international cargo. More importantly, the trucking industry has been 
at the forefront of efforts to establish partnerships with federal, 
state and local governments to improve the sharing of information 
between the private sector and public sector entities, and among the 
various industry sectors within the private sector.
    The trucking industry supports programs that help motor carriers 
increase the security and safety of their operations, especially if 
such programs can be implemented in an effective and efficient manner 
and provide real security. ATA believes that the end goals of security 
and efficiency are not mutually exclusive. Therefore, ATA has been 
working to ensure that programs designed to augment our national 
security do not hinder our ability to provide transportation services 
to our customers which support our nation's economic security and 
growth.
    The trucking industry has been proactive in ensuring our national 
security and in protecting our nation's way of life through its 
security programs, including the Highway Watch<SUP>'</SUP> program and 
through our efforts in the Highway Information Sharing and Analysis 
Center (``ISAC''). These two programs emerged from the effort to 
improve communication and improve the sharing of information, both at 
an intra-industry level and between industry and government agencies.
    Our industry has taken a number of steps to reduce the possibility 
of our equipment being used for terrorism purposes. We also recognize, 
as we know you do, that no level of defense can achieve perfect safety 
and security in stopping a terrorist attack. However, we strongly 
believe that by increasing awareness among company personnel, by 
implementing simple cost-effective security measures, and developing a 
security culture within our operations, trucking companies can reduce 
the odds of being targeted by terrorists.
    In the Final Report of the National Commission on Terrorist Attacks 
Upon the United States, otherwise known as the ``9/11 Commission 
Report'', the authors stated the following recommendation in Chapter 
12:
        The U.S. border security system should be integrated into a 
        larger network of screening points that includes our 
        transportation system and access to vital facilities, such as 
        nuclear reactors. The President should direct the Department of 
        Homeland Security to lead the effort to design a comprehensive 
        screening system, addressing common problems and setting common 
        standards with systemwide goals in mind. Extending those 
        standards among other governments could dramatically strengthen 
        America and the world's collective ability to intercept 
        individuals who pose catastrophic threats.
    ATA fully agrees with the intent of this recommendation and several 
efforts have been undertaken to elevate the coordination of human 
resources, infrastructure, and technology in improving clearance 
systems and processes at our land borders. For the purpose of this 
hearing, following is a description of the implementation of cross-
border security programs, the development of automated systems to clear 
cargo, crews and vehicles, and the establishment of a single border 
agency with a uniform set of guidelines, procedures, and chain of 
command. Again, these programs are not foolproof, but they have 
certainly allowed the trade community and government agencies to 
increase security and reduce the threat from potential terrorists 
threats.

Cross-Border Security Programs
    It is important to note that for motor carriers that participate in 
cross-border operations with Canada and/or Mexico high-security is not 
something that began on 9/11. Years before the terrorist attacks on our 
Nation, ATA and the trucking industry had been actively involved in 
security programs which established risk-criteria to allow low-risk 
legitimate cargo, crews and vehicles to expedite their clearance for 
entry into the U.S. Allowing for the rapid processing of known low-risk 
cargo, carriers and personnel, frees law enforcement personnel at our 
air, sea and land Ports of Entry (``POE'') to focus their efforts and 
resources on higher risk shipments and carriers.
    For instance, in 1998 the then U.S. Customs Service (``USCS'')--now 
part of the U.S. Bureau of Customs and Border Protection (``CBP'') 
within DHS--in a joint effort with the trucking industry, implemented 
the Land Border Carrier Initiative Program (``LBCIP'') for U.S. bound 
cargo entering from Mexico by truck. Trucking companies and their 
drivers were certified by USCS (via audits and background checks) to 
participate in the program. In return for participating in the LBCIP, 
motor carriers gained expedited clearance of their cargo.
    In the past few years, the trucking industry and other members of 
the international trade community, have worked with CBP in developing 
the C-TPAT program, and its North American focused security program 
known as Free and Secure Trade (``FAST''). The overall goal of C-TPAT 
is to ensure the security of the entire international supply chain: 
from overseas manufacturing operations, to air, sea and land 
transportation providers, to entities such as importers, brokers, and 
forwarders involved in the processing of cargo entering our country. 
Motor carriers participating in this program agree to meet a set of 
Minimum Highway Security Criteria in their operations (see Appendix I). 
In order to participate in FAST, motor carriers must become C-TPAT 
certified and their commercial drivers must complete an application and 
undergo a background check through various databases. Once such steps 
have been taken and verified, motor carriers benefit by receiving 
expedited clearance of the cargo--as long as the cargo belongs to a C-
TPAT importer--their equipment, and driver, in addition to getting 
access to a dedicated FAST-lane for use only by FAST participants.
    Though the development of FAST-lanes has been slow due to 
infrastructure and capacity limitations at POEs, motor carriers have 
been signing up for C-TPAT and getting drivers registered under the 
FAST program. As the C-TPAT continues to grow, trucking companies have 
been promoting membership in C-TPAT to their customers, relating to 
clients the benefits of joining C-TPAT in expediting the movement of 
their goods. In turn, many shippers have also been requesting that 
their motor carriers participate in C-TPAT if they want to continue to 
provide cross-border transportation services for the customer.
    As part of the security partnership established between the U.S. 
and Canada, both countries established similar security supply chain 
programs, with Canada implementing its Partners in Protection (``PIP'') 
program, which is equivalent to CBP's C-TPAT. The northern border FAST 
program is a jointly designed strategy between the U.S. and Canada, 
functioning as a single security program for both C-TPAT and PIP 
approved motor carriers. In addition, CBP and Aduanas de Mexico 
(Mexico's Customs agency) also began the joint implementation of the 
FAST/Express program in 2003 on the southern border, operating now at 
six POEs.
    Such joint industry-government efforts have allowed the trade 
community and law enforcement agencies to share information and improve 
security for the transportation of international cargo across our 
mutual land borders. These joint efforts will continue to work well 
into the future to help eradicate the flow of illegal and/or dangerous 
cargo or aliens into the United States in commercial conveyances and 
increase the security of our transportation operations in international 
trade. The Committee should encourage the continued development of 
programs, such as FAST/C-TPAT.

Automated Clearance Programs
    The trucking industry is also closely involved in the development 
of information systems and technologies to facilitate enforcement 
activities while at the same time expediting the movement of cargo 
across our borders. The Automated Commercial Environment (``ACE'') is a 
system that has been under development by CBP for over a decade, and is 
now being fully deployed along our land border POEs. ATA and many of 
its members worked on the design and development of the ACE Multi-
Modal-Manifest data requirements necessary for the transmission of data 
by all transportation modes through an electronic manifest, or e-
manifest. The development of ACE is an important tool to improve the 
efficiency for capturing trade data, clearing cargo entering the US, 
and provides CBP an improved system for targeting, risk analysis, and 
release of cargo.
    CBP is also developing the International Trade Data System 
(``ITDS'') as an integral part of ACE. The ITDS concept is simple: 
Traders and carriers submit commercially based, standard electronic 
data records through a single federal gateway for the import or export 
of goods. As a single information gateway, ITDS distributes these 
records to the interested federal trade agencies, such as CBP, the Food 
and Drug Administration (``FDA''), DOT and others, for their 
selectivity and risk assessment. In standardizing the process, ITDS 
reduces the confusion and complexity of international trade, and speeds 
the processing of goods, equipment and crews across our borders. ITDS 
also benefits the government by providing more current and accurate 
information for revenue, public health, statistical analyses, safety 
and security activities, as well as significantly reducing data 
processing development and maintenance costs.
    The development and implementation of the ACE/ITDS is an essential 
component in accelerating the flow of commerce while also improving the 
ability of CBP to analyze and target data entries.

One Face at the Border
    ATA also recognizes and commends the efforts by CBP and DHS in 
establishing the ``One Face at the Border'' program to create an 
interdisciplinary force of officers working at our POEs. Prior to 
establishing this effort, officers representing various agencies 
operating at the POEs had separate reporting mechanisms, chains of 
commands, regulations to enforce and differing pay-scales. Furthermore, 
each border agency managed and utilized its own databases and 
information systems to perform their relevant clearance activities for 
goods and people entering the US. Of even greater concern was the fact 
that at various times during the day these systems, which generally 
lacked interoperability, were prone to be ``down'' for extended periods 
of time, greatly limiting the ability of inspectors to access essential 
information in performing their duties. The trucking industry strongly 
supports the ``One Face at the Border'' initiative, and believes that 
this effort has greatly improved land border security and trade 
facilitation.

U.S. VISIT Program
    ATA has closely followed the development of the United States 
Visitor and Immigrant Status Indicator Technology (``USVISIT'') program 
due to the potential for additional delays at POEs and possibly 
additional processing requirements for some drivers. ATA has been in 
close communication with the USVISIT development office. ATA recognizes 
that the implementation of this challenging program is mandated by 
various statutes, including sections of the Data Management Improvement 
Act (``DMIA''), the USA PATRIOT Act, and the Enhanced Border Security 
and Visa Entry Reform Act of 2002. Although USVISIT is not yet fully 
operating at land border POEs, ATA understands that DHS continues to 
work towards expanding its requirements for entry and exit controls.
    The following bullets describe the essential areas that we believe 
are necessary for DHS to focus on as it moves forward in implementing 
USVISIT at our land borders:
        <bullet> Consider how USVISIT will interact with other border 
        security programs, including those that ensure supply chain 
        security, such as FAST/C-TPAT, and those that clear U.S. 
        international trade, primarily ACE/ITDS. Foreign drivers that 
        have been cleared to participate in the FAST/C-TPAT program 
        should not be required to comply with entry/exit requirements 
        of the USVISIT program due to their ``low-risk'' 
        classification;
        <bullet> Continue to exchange information and increase 
        cooperation with our international trading partners, especially 
        with Canada and Mexico. Special consideration must be given as 
        to how we can address infrastructure and information technology 
        needs and requirements for developing an entry/exit control 
        process at land borders. In order to mitigate the costs of such 
        technology and physical infrastructure development, greater 
        consideration must be given to harmonizing and leveraging 
        systems and resources with our NAFTA partners.
    The trucking industry encourages the U.S. government, in 
cooperation with both Canada and Mexico, to improve and to facilitate 
the capture and exchange of information on goods and people crossing 
our land borders. A large portion of the U.S. international trade and 
immigration transactions generated every day occur from transactions 
with our two NAFTA partners. ATA recommends that the U.S. government 
move forward with an aggressive timeline in implementing both the Smart 
Border Accord between the U.S. and Canada, and the 22 Point Plan 
between the U.S. and Mexico, as well as implementing the 
recommendations established under the North American Security and 
Prosperity Partnership.

Conclusion
    ATA recognizes and commends this committee for holding this hearing 
and we urge you to support efforts to establish security initiatives 
that promote both security and trade. It is essential that this be done 
in close cooperation with our counterparts in Canada and Mexico. ATA 
believes that any successful effort for preventing the entry of 
terrorists through our air, sea or land borders will have to rely on 
the cooperation of foreign governments, in essence ``pushing our 
borders out''. From the land border perspective, this means working 
with Canadian and Mexican government agencies and officials in 
developing programs to share facilities and information systems in 
order to capture data prior to cargo and people arriving at our POEs.
    The trucking industry considers the present security environment to 
be quite robust for cross-border trucking operations along both our 
northern and southern borders, and we believe that such programs are 
heading in the right direction. In summary, we make the following 
comments to continue to increase the security and efficiency benefits 
of cross-border operations:
        <bullet> Continue the promotion and marketing efforts related 
        to C-TPAT and FAST to increase participation by importers, 
        manufacturers and carriers. Increasing the number of 
        participants that are in compliance with these programs will 
        improve the allocation of financial and human resources to 
        focus on shipments and entities that require further 
        information and/or examination.
        <bullet> DHS must take a leading role among federal agencies in 
        managing systems and processes at POEs for U.S. imports and 
        exports, especially with agencies outside of the DHS chain of 
        command. Though other federal agencies not within DHS have 
        statutory mandates requiring them to implement procedures for 
        clearing certain goods entering at U.S. ports of arrival (for 
        example FDA's implementation of the prior import notice 
        requirements under the Bioterrorism Act), these agencies should 
        be required to coordinate and work closely with CBP and the 
        ACE/ITDS system.
        <bullet> We encourage this committee to work with other 
        relevant congressional committees to analyze funding to improve 
        border facilities and infrastructure. This is essential in 
        ensuring a smooth flow of legitimate travelers and commerce 
        across our borders while ensuring our national security. We 
        encourage that such an analysis consider an appropriate level 
        and mix of technology, equipment and personnel to maximize the 
        capabilities of border facilities.
    In the post 9/11 environment industry and government must jointly 
develop systems and processes that allow us to defend our national 
security and protect our economic security. By working together, 
industry and government can develop and achieve the right balance in 
which heightened operational security is achieved but not at the 
expense of our wellbeing and economic security. As the 9/11 Commission 
Report points out in another section of Chapter 12:
        The U.S. government cannot meet its own obligations to the 
        American people to prevent the entry of terrorists without a 
        major effort to collaborate with other governments. We should 
        do more to exchange terrorist information with trusted allies, 
        and raise U.S. and global border security standards for travel 
        and border crossing over the medium and long term through 
        extensive international cooperation.
    The trucking industry agrees with such a goal as a crucial 
stakeholder in our nation's efforts to secure our critical 
infrastructure and overall wellbeing from terrorist threats and 
activities. ATA and motor carriers throughout our nation and North 
America are committed to partnering with both government and other 
sectors of our economy to improve and ensure our country's national and 
economic security well into the future. Again, ATA thanks the Committee 
for this opportunity to present our comments and input on the issue of 
security in cross-border trucking operations.

    Ms. Jackson Lee. I thank the witness for his testimony.
    And I thank all of the witnesses for their testimony.
    And I think Mr. Ward has established himself as either a 
witness that will be invited back on many, many occasions, or 
he has made the record for his testimony in terms of the time 
that he was given. No reflection on the other distinguished 
witnesses, but it was in fact unique.
    It doesn't mean that you are going to get shortened 
questions, so it is not a quid pro quo.
    I yield myself 5 minutes for questions and, again, offer my 
appreciation.
    We knew there was something here. And I don't think that we 
are going to finish the inquiry that we are making in one 
hearing.
    But let me start with you, Mayor Salinas, because you have, 
if you will, either pricked our conscience or incited the 
interest of the importance of this hearing. You have 
mentioned--and this is where I want to pick up--one, you have 
indicated that we have a problem with highway funds, because 
you are obviously seemingly a place of a magnitude of trucks, 
and you seem to be diminished in that funding.
    And you have also indicated that there is a brief moment 
where these trucks are in the jurisdiction of our border 
authorities but then they are in Laredo. And the 
responsibilities are on local law enforcement, which is not 
only attributable to issues of safety of driver license, but 
there are issues of contraband or terrorism or security.
    Please state for us again the danger that poses and also 
your perceived solutions.
    Mr. Salinas. Madam Chair, let me say that, first of all, 
13,000 trucks cross each way into Laredo and to Mexico. That 
creates a very difficult situation. It affects us because just 
one truck could really create a chaos and create a serious 
problem.
    One of the things that I think we are lacking at this time 
is the fact that we don't have the personnel or resources to be 
able to--I am talking in terms of the local police department. 
We have worked very, very well, but I think we need additional 
sources.
    The fact of the matter is, when you have all these trucks 
crossing, they do have an impact. Certainly they are bringing 
good to our city, with economic trade and so forth. But at the 
same time, we have a responsibility to protect our citizens and 
protect our city.
    And I think one thing that concerns us is that we have 
asked, on numerous occasions, for assistance, and we have not 
gotten it. I know we are being told that they are working on 
this. You know, it creates a lot of problems: the destruction 
of our roads and the safety concerns.
    I can tell you that, after having been at the Bureau for 27 
years, the potential of a very serious incident is there, just 
waiting to happen. But we don't have the resources to be able 
to--we need to be proactive. I think that is what I am trying 
to say here. Because we don't want to respond; we want to 
prevent. And that is what we are trying to do.
    But the reality is that we need support for our local law 
enforcement, whether it be just the police department or the 
sheriff's department.
    But one thing that has been really healthy for us, about 2 
months ago I called for a mini summit of all law enforcement 
entities, from the Customs and Border Protection, Immigration--
all the Federal, state and local agencies. And we feel that 
that is important, because we need to be proactive and we need 
to have communication.
    I think one of the problems that we really have had is 
dialogue. One thing that we also did in Laredo is create an 
international committee on trade. That is our lifeline. That is 
what makes Laredo go.
    So, in reality, I think there is a potential for something 
to happen, but we need to address it and be ahead of the game.
    Ms. Jackson Lee. We need to be proactive.
    Mr. Salinas. Yes.
    Ms. Jackson Lee. Let me ask this question quickly. You have 
heard, we have discussed ISAC and we have discussed the 
Homeland Security intelligence-gathering network. And I raised 
the question about whether that is an effective source of 
information.
    Is that an effective source for Laredo? Do you believe your 
law enforcement accesses those particular databases? And are 
they effective?
    Mr. Salinas. Well, I think you touched a very sensitive 
nerve. You know, one of the problems that we have today is 
that, if we don't establish databases, if we don't have the 
informants, the confidential informants, if we don't have 
dialogue with our neighbors, here we are thinking about--well, 
I think it goes beyond thinking about building a wall, you 
know. We ought to be building bridges of friendship.
    And really, that is where we have a little bit of a 
problem. How do I expect to work with our counterparts, with 
our business people on the other side, when we are going to 
build a fence?
    It is really a very sensitive issue, and I think--
    Ms. Jackson Lee. --your law enforcement--
    Mr. Salinas. What we did when I was in Mexico City, trying 
to work and build friendships, instead of contacting each other 
through e-mail or through little notes or something. We have to 
have that personal contact and establish real friendships, 
real, strong ties and confidence with each other.
    I can assure you, Madam Chair, that while we were in Mexico 
City for 5 1/2 years with the most wonderful part of my law 
enforcement experience, we initiated training programs where 
Mexican police officers would pay their own way to go to our 
training classes. And they, in turn, would risk their lives to 
bring fugitives back to the United States. And the term that I 
was there, for the 5 1/2 years, we returned an average of 75 to 
80 dangerous fugitives.
    And we need that spirit of cooperation. And this is what is 
going to help us with easing the potential threat to the United 
States of America.
    Ms. Jackson Lee. Thank you very much, Mayor.
    Mr. Ward, you raised, if you will, the large issue in the 
room: knowing who these individuals are, how they are funded, 
how they are going forward. How severe a problem is that, in 
your perspective and from a business perspective?
    And your suggestion for a solution--you mentioned the 
Canadian legislation. But let's step away from the Canadian 
legislation. Just give us your assessment. Because obviously it 
would mean an intelligence base or intelligence database that 
would either retain this information, place to put this 
information. We would have to gather the information.
    But how crucial do you believe it is for the listing that 
you just mentioned?
    Mr. Ward. I think it is very important for government to be 
the one that controls the border. There can be private 
operation of a border crossing, but it should be government 
that dictates the safety and security priorities. And that 
doesn't happen today.
    In my testimony, I give some examples, one on hazardous 
materials transport. It was brought up a number of times here. 
When I came from the airport, 395 to exit D Street, there is a 
sign that says, ``Hazardous materials are prohibited.'' No such 
signs exist at the Detroit border.
    However, the Federal Motor Carrier Safety Administration 
has hazardous material routing restrictions. Hazardous 
materials that are restricted will go across the bridge. 
Michigan state police says you can't. The bridge owner says, 
``It is private property; you can't tell us what to do.''
    Now, how do you have a nominal detection to pick out who 
the good guys and the bad guys when the government isn't even 
clear of who is in charge? There are segments of control by 
government of certain aspects of the border, but not in 
totality.
    And I think it is necessary, to ensure safety and security, 
that it be a charge of the government. I mean, right now the 
Ambassador Bridge in Detroit is looking at twinning the bridge 
based on 1920 enabling legislation. You know, I think we might 
need an update.
    [Laughter.]
    Ms. Jackson Lee. And I thank you, Mr. Russell. I will pose 
a question at a later time.
    I am now going to yield to the distinguished ranking 
member, Mr. Lungren from California.
    Mr. Lungren. Thank you very much, Madam Chair.
    And I would suggest we might follow up on Mr. Ward's 
comments, that operators of bridges that cross international 
borders claim that we have no jurisdiction over them. It seems 
to me that that flies in the face of everything I know about 
Federal law, Federal authority and borders. But maybe you have 
some unique situation up there in Michigan. But we ought to 
look at it.
    I have heard it mentioned several times that we need to 
build bridges, not walls. And I respect your opinion, Mayor 
Salinas. I happen to have been the attorney general of 
California and dealt with my Mexican counterparts on many 
occasions with respect to the return of fugitives. And we had 
some, but there were a lot of others, particularly cop killers, 
that we have never been able to get back. And the Kiki Camarena 
case was one that occurred while I was attorney general.
    I would just say, at least in my state, where we did build 
a fence in the San Diego sector, we actually achieved some 
success in terms of the diminution of crime, particularly 
violent crime.
    And it is not the only answer. I was reading recently about 
the Roman empire, and they talked about how if you look in 
parts of England, which was the outlying area of the Roman 
empire, you will see vestiges of the wall there. Interestingly, 
they built walls but they had a lot of gates in them. And maybe 
that is what we need to do, is to make sure that we have 
carefully observed points of entry.
    Mr. Mayor, my question to you would be this: Do you see any 
difference in the concerns that you have now, other than an 
increase in traffic presumably, if we had a change in law that 
allowed the pilot project to go forward or, at some later date, 
to pass the pilot project to allow a large number of Mexican 
trucking companies to be able to deliver their load somewhere 
outside of that commercial zone they have now, and vice versa?
    Mr. Salinas. Mr. Ranking Member, thank you.
    I think, as a former FBI agent, my primary concern would be 
the safety of our citizens. Certainly I think that we have to 
have a fair balance. Number one, we need to know who the 
drivers are. We need to know everything about their background, 
to make sure that we don't put our citizens in any danger. They 
have to comply to make sure that their vehicles pass their 
vehicular inspection.
    I feel that there ought to be a fair balance in the way 
that we treat our neighbors. But at the same time, our 
neighbors need to obey the laws of the United States, just like 
when I went to Mexico I had to obey the laws of Mexico even 
though I had a diplomatic passport. I am not above the law, and 
neither should anybody.
    But as partners, we have to have some kind of conscious and 
make sure that we treat everyone fairly. But to answer your 
question, I think we have to be very clear that people are 
going to come to our country with their vehicles. The vehicles 
better be safe. The people who are going to be the vehicles 
better be law-abiding citizens.
    And we have to establish a mechanism whereby we have a good 
database. If we don't have that, Ranking Member Mr. Lungren, I 
think that is where it hurts. Because you can't have it both 
ways. You have to respect the law, but you have to have a good, 
solid database. Because if don't have that, just one vehicle 
coming across with somebody going to harm Americans, you know, 
we can't have that.
    Mr. Lungren. Mr. Russell, you are here not only 
representing yourself and your company but the American 
Trucking Association. We considered this issue of the pilot 
project and beyond on several occasions, and I think some 
members were surprised the American Trucking Association 
supports the effort.
    Both from a commercial standpoint but also from a security 
and safety standpoint, could you give us an idea of why the 
American Trucking Association believes, I presume with the 
caveat that Mayor Salinas has given us, believes this is a good 
thing for us?
    Mr. Russell. I started Celadon 22 years ago, and we were 
the first carrier to allow the trailer to go into Mexico. Until 
that point in time, the cargo was unloaded, put in a warehouse, 
and then on a Mexican truck the rest of the way. We were the 
first that allowed it to go through.
    And had a small facility in Laredo, which is now a big 
facility in Laredo, and this fellow, Salinas, is doing a great 
job, by the way.
    Basically the way the Mexican border operates is the 
following. A tractor will take a trailer from Guadalajara to 
Nuevo Laredo. That will be a long-haul Mexican tractor--same 
age, roughly, as American tractors; same condition, roughly, as 
American tractors--to the south side of the border. It will 
drop the trailer into either its own facility or a drayage yard 
on the south side of the border.
    The crossing will be done, 90 or 95 percent of the time, by 
what are called drayage trucks. And they are generally small 
companies that run trucks just across the border and then drop 
them at an American trucking facility. And then taken the rest 
of the way by an American driver.
    That is basically how the border has operated for years.
    If you put yourself in Europe and were a pasta maker in 
Venice and had an order to ship pasta in a truckload to 
Amsterdam, it wouldn't go in an Italian truck to the French 
border, a French truck to the Belgian border, Belgian truck to 
the Dutch border, Dutch truck to Amsterdam. It would be taken 
by an Italian truck or a Dutch truck going through.
    Essentially the process that now exists is like the old 
days of the Pony Express, when one horse couldn't make it. 
Three trucks handle the trailer.
    That is not how the Canadian border operates. The Canadian 
border, since 1982, after a successful pilot project, a driver, 
a Canadian driver, will take a load from Toronto to Atlanta and 
then must go back to Canada. He is not allowed to do cabotage.
    Essentially the Mexican border should operate that way 
also.
    Mr. Lungren. I would presume that you and your associates 
in the American Trucking Association would be upset if there 
were substantial violations of our agreement with Canada; that 
is, where we would see a number of instances of people not 
going directly back, but actually trying to pick up loads 
within the United States.
    Do I take it by your testimony that we have not seen a good 
deal of evidence of that occurring, with respect to Canadian 
trucks?
    Mr. Russell. Virtually none. We operate a Canadian company. 
We own a company in Kitchener with 350 tractors. And it never 
happens with us, but I don't think it ever happens with others 
either.
    Mr. Lungren. So what you are saying is this is not unique. 
We have already had a pilot project with our northern 
neighbor--
    Mr. Russell. For 25 years, and we have run about 350 
million miles in the U.S. with Canadian drivers. It is a small 
part of the company--
    Mr. Lungren. Sure.
    Mr. Russell. --but basically every weigh station, every 
FMCSA station when you are crossing state lines--
    Mr. Lungren. What about the concern about the drivers and 
the safety of their vehicles and meeting the standards and all 
that sort of thing that we are facing as questions with Mexico?
    Mr. Russell. From an ATA standpoint, those issues are being 
faced by the FMCSA, which is part of the DOT, and by TSA. From 
our standpoint, our Mexican tractors--and we have a smaller 
fleet in Mexico--but GPS-tracked, you know exactly--
    Mr. Lungren. Do you have any in Italy? Or are you just--
    [Laughter.]
    Mr. Russell. Most of them right here in America, sir.
    But I remember testifying at the committee where both 
Chairwoman Jackson Lee was at and you were at in November of 
2005 about hazardous material certification. And I was equally 
impressed by you guys then.
    Mr. Lungren. Thank you very much, particularly for that 
last part.
    [Laughter.]
    Mr. Russell. Thank you.
    Ms. Jackson Lee. You notice I did not gavel you down before 
that comment was made.
    [Laughter.]
    Shows the collegiality of this particular committee.
    I am going to yield to myself for a second round and 
because I did miss exploring some points that I think are key.
    Mr. Russell, first of all, thank you. You seem to be a 
company that is aware of the climate in which we live, and it 
is important that that occur. And let me thank the American 
Trucking Association for having you as their representative.
    But I think that we are trying to get to the core element 
of what we need to try to improve, I would say fix. And it 
would be helpful if you would give me a sense of how well-
versed your ownership, your membership, the trucking industry, 
is in security threats. How well-versed are their truckers, 
their management?
    The owners are not always necessarily, if there are large 
trucking companies on the ground, but they have to rely upon 
their truckers and sometimes their individual trucks, of 
course, and ownership. And that may be a separate entity.
    And how are they trained to protect themselves against 
these threats, meaning these truckers and the industry? What 
type of background checks do your members conduct on their 
prospective drivers? And are your drivers encouraged to report 
suspicious activity? And to whom do they make that report?
    Mr. Russell. We were one of the first carriers that were 
100 percent Highway Watch drivers. All of our drivers--and in 
America we have roughly 2,600 drivers--they are all Highway 
Watch-certified.
    There are 600,000 U.S. truck drivers that are Highway 
Watch-certified. And they know what it means. And what it means 
is when you see something strange, report it. And there have 
been various instances where that has actually caught 
perpetrators and prevented terrorism.
    So is there a focus? Absolutely. There are about 3 million 
trucks on the road. Many of those are just intracity trucks. 
But 600,000, and I think we are 2 1/2 years into the program, I 
think is outstanding. So is there a focus? Absolutely.
    C-TPAT--and there are about 8,000 companies that are 
members of C-TPAT--the question that you had asked I think the 
fellow from CBP--
    Ms. Jackson Lee. Customs and Border Protection.
    Mr. Russell. --we have been audited, C-TPAT. We were 
audited about 8 months ago or a year ago. And they came in and 
did a comprehensive, complete audit.
    Ms. Jackson Lee. Customs and Border Protection?
    Mr. Russell. I think it was them. I am not sure--it was 
U.S. government, part of Homeland Security. I don't know which 
department. But we were completely audited. We walk around with 
badges. Visitors are not allowed in without a picture I.D.
    Ms. Jackson Lee. This is where your trucks are housed?
    Mr. Russell. Yes, and all of our terminals. And that is 
generally done by virtually every major trucking company that I 
know of. And we are maybe 12th or 13th largest. There are many 
larger than we.
    But there is a total focus on homeland security.
    Ms. Jackson Lee. And there are background checks 
encouraging them to respond to suspicious activity or 
suspicious persons? Is that something that is a culture of the 
trucking industry and truckers?
    Mr. Russell. We and, I assure you, I believe every fleet 
over 100 tractors. There is a system called DAC, which provides 
criminal background checks on everybody. That is one of the 
systems. There are lot of companies that you could use.
    But we haul a lot of high-value goods. We don't hire 
felons, people that have been in jail for a felony. We have all 
that information. We have background checks.
    And we are not alone. The industry does that. You have to 
do it. You have to do it to protect our own interests as well 
as to protect the country's interests. And it is consistent. 
And, you know, to say every trucking company does it, I am sure 
that is not true. But every major company does it, and I think 
a large percent of the industry does.
    Ms. Jackson Lee. We have intertwined safety and security in 
this room. I want to make it very clear that the question that 
has not been asked and answered thoroughly, from my 
perspective, is the question of security.
    I applaud companies for their in-depth review of their 
employees. I, frankly, believe that people with criminal 
backgrounds who have paid their dues to society should have a 
right to a second chance. And I don't equate a background in 
the criminal situation as one that is a security threat.
    Mr. Russell. We hire them in a warehousing position, but we 
don't put them on the road, because we fear what a plaintiff 
lawyer would do if, God forbid, there was--
    Ms. Jackson Lee. Now, that is the other threat that he 
speaks about. That is one I can't respond to in this hearing 
room.
    But let me thank you very much.
    Mr. Lungren. Are we both lawyers?
    [Laughter.]
    Ms. Jackson Lee. That we are.
    Mr. Lungren. We plead guilty.
    [Laughter.]
    Ms. Jackson Lee. Mr. Ward, recount for me again--you gave 
us a list: you don't know how they are funded, you don't know 
who they are. Give us that list again, in the context of 
security. When you ended your testimony, you gave a long list 
of--and I put a sentence that said, ``We don't know who they 
are.'' But this is in the context of security. Would you put 
that list before this committee again of what we don't know?
    And would you also explain this concept of private bridges 
and the question of who is in charge? I think that is a big 
question for this committee: Who is in charge? We may not be 
the build-a-bridge committee, but we are concerned about all 
transportation modes that impact the people of the United 
States of America. So could you answer that question in this 
context?
    Mr. Ward. If I could start with your second question, there 
was a recent story on NPR, and they showed trucks parking under 
the bridge. They come and they pay a toll, they park under the 
bridge, and the driver walks away. So you have trucks parking 
under the busiest commercial crossing in North America, and the 
truck driver walks away.
    Ms. Jackson Lee. And that bridge is?
    Mr. Ward. The Ambassador Bridge.
    Another thing that happens is they have fuel trucks park 
under the bridge. And being from California, the gentleman, you 
will be familiar with what happened there recently. And--
    Mr. Lungren. I am. And also, the rebuilding of it was done 
by C.C. Myers, who is in my district, who builds bridges faster 
than anybody. Just thought I would throw that out there.
    Mr. Ward. And during the news article, NPR asked Federal 
Highway, and Federal Highway said, ``We have talked to them 
about the problem,'' but they don't have authority. Neither 
does DOT. Neither does Michigan state police.
    Ms. Jackson Lee. Neither does the Department of Homeland 
Security, to your knowledge.
    Mr. Ward. Obviously not.
    Mr. Lungren. This is under the bridge on the American side?
    Mr. Ward. Yes, sir. There is a picture in the testimony.
    And it is just issues like that. It is the hazardous 
material issue. There are a number of issues that are well-
documented in the press, where the owner of the bridge says 
that the Federal Government doesn't have authority.
    And then to the first question, on the list of what I think 
should be required--and I am just looking personally from our 
business, in the hazardous material transport business across 
water--
    Ms. Jackson Lee. And when you say that, I think it is 
important, because I want to make sure that we are 
jurisdictionally focused on this committee, ``hazardous'' can 
equate to terrorism or security threats, because an incident 
can occur innocently, meaning an accident, or it can occur 
purposely. So let me just yield to you, with that 
clarification.
    Mr. Ward. And how we do it, we receive three grants from 
the Department of Homeland Security and TSA at the beginning, 
and we put in an advance notification system where we give law 
enforcement every bit of information we have. They have cameras 
in our office, in our terminal. And we have made our company 
completely transparent. And that is the way we feel the border 
should be, that the access to all information should be that of 
government.
    But nobody has, like I said, nobody has done any vetting of 
who we are, after 9/11, come and kick the tires, ``Who are you 
guys? Where do you get your money? Who else is in your 
business? What kind of companies do you own? Are you 
transporting hazardous materials across your own ferry? What is 
going on?'' And I think that is a significant gap, that there 
is not that knowledge.
    And it is not like you would have to create a new 
department within DHS. There is only a small number of 
privately owned crossings.
    Ms. Jackson Lee. But you are suggesting we don't have to 
eliminate those privately owned crossings but we can begin to 
have a more cooperative working relationship to bring to their 
attention the importance of security.
    Mr. Ward. I would, if I may, I would say no. I would think 
that the government should dictate the safety and security 
priorities. It shouldn't be an option. And that is what kind of 
happens now, which is evident by parking trucks under the 
bridge, and the Federal Highway Department says, ``You 
shouldn't do that,'' and they do it anyway. That shouldn't be 
allowed.
    The government should be able to say, ``This is how a 
border is operated in the security and safety interests of this 
nation.'' I think it is very vital.
    Ms. Jackson Lee. You say there are about how many of these 
bridges?
    Mr. Ward. On the northern border, there are two privately 
owned bridges. One of the tunnels is privately operated in 
Detroit. We are a private company doing commercial cargo. I 
think on the Mexican border there are a number of private 
crossing--I mean, it is a small number, but you would think 
there would be some mechanism of reporting who you are.
    You know, if we sell our company tomorrow, we don't tell 
anybody. Shouldn't that be in the interest of this committee, 
if we sell to al-Qa'ida USA?
    Ms. Jackson Lee. Well, you raise a question that I think 
poses food for thought, and it should suggest to this committee 
that we have further investigation to do.
    Let me just get Mayor Salinas again.
    I want to just focus on trucks coming into Laredo, as they 
would come into other cities, and where ICE and CBP drops off 
and where you pick up as local law enforcement.
    Now, one issue is reimbursement, but I don't want to focus 
on that. I want to focus on the fact that you don't get 
resources from the Department of Homeland Security for that 
expanded time frame that these trucks are in and around your 
community. And with the limited information that is given at 
the border, in your estimation this poses a severe concern.
    Mr. Salinas. Yes. And the concern is that we don't have 
enough personnel to address these issues. You know, one thing 
that we have done is move the inspections. We want to move the 
physical inspection of the trucks away from the bridge. Right 
now--and I heard you say, Mr. Lungren, about building bridges--
we are in the process of trying to build two bridges. So we 
might want to talk to you for a recommendation. But we want to 
get the hazardous material out of the city. Right now they do 
go through the city.
    But I think the uniqueness of our city is that so many 
trucks are crossing through downtown Laredo. A lot of them come 
through downtown Laredo. It creates a lot of traffic issues, 
but we don't have enough personnel. We have gone after the COPS 
program to try to get additional people. But it is really a 
very serious issue, because we have this enormous tie-ups of 
the traffic. We are concerned about public safety.
    Ms. Jackson Lee. So then, if a terrorist manages to cross 
the border with a truck full of who knows what, and then they 
dilly-dally or go through your city and, for some reason, the 
destination that they are going to, something happens in your 
city that either stalls them or causes whatever they are trying 
to do to happen there, what you are suggesting is that we have 
a breach, or we have a break from the moment they cross the 
border, and then the burden falls on areas like Laredo.
    Mr. Salinas. The local jurisdiction, yes.
    That is why we are asking for assistance in that regard, 
because really what we really need is people--and technology. 
You know, when we are talking about a wall, we already have a 
virtual wall in Laredo, which is the Rio Grande. We already 
have that. And really, we have asked, and we will continue to 
ask, for technology and boots on the ground. And really, that 
is what we are really lacking.
    But the good thing--there is also a good thing--that the 
cooperation between the city and Homeland Security is 
excellent, is excellent. But, you know, we--
    Ms. Jackson Lee. I think--
    Mr. Salinas. We are potentially in a very difficult 
situation.
    Ms. Jackson Lee. I think you are vulnerable, and I 
acknowledge that.
    Let me yield to the gentleman, if he has any interest in a 
second round?
    Let me indicate that the gentlelady's time is up. I am 
probing this because I think there are a lot of questions that 
have been raised.
    I think, Mr. Ward, it is important to know that we do have 
a process, CFIUS, which is a more refined bill that would now 
have a more effective process for any domestic sales to 
international entities, to be able to judge whether or not 
there is a threat to the safety and security of the United 
States.
    Personally, let me put on the record that I have great 
concern on some of the sales of highways. And this is 
prospectively. I think one of the entities that you speak of, 
obviously, would be grandfathered--it is existing, the private 
ownership. But we certainly need to look at ways that we can 
work to ensure that the safety, the security laws of the United 
States are utilized and covered whether you are private or 
whether or not you are public.
    I think the question there is, do we have a defined 
interest in securing the American people? And that defined 
interest supersedes private ownership, in this instance. And 
that is a question I think this committee will certainly have 
to address.
    But we are very grateful for this instructive testimony.
    Let it be known, as well, that we do read your testimony.
    And we will now go back with a fine-tooth comb, Mr. 
Russell, on behalf of the American Trucking Association, 
because we would like to ask a myriad of questions about the 
coordinating of the DCC and a number of others and how you rely 
upon it. We will pose those questions in a letter. We hope that 
you will respond quickly to that.
    Mr. Ward, we will have additional questions for you.
    And, Mayor Salinas, I think you have crafted a very large 
question, which, to be honest, Mr. Lungren, I don't believe our 
CBP and TSA answered it, this collaboration, this work that 
occurs, you know, 10 miles, 50 miles past the border.
    Laredo is right on the border, but it is a city that--you 
can at least get 10 miles away from the border in your city. Is 
that not accurate?
    Mr. Salinas. Yes.
    Ms. Jackson Lee. And I don't know how we create a 
relationship there and how we do that, but I am going to raise 
the question of why we have not.
    And I also want to raise a question as to whether or not we 
are really as coordinated as we should be. And certainly, I 
think, a picture speaks a thousand words, Mr. Ward, and frankly 
the picture that you have shown us, I don't imagine that that 
picture is alone. I imagine that there are bridges that we have 
that are governmentally controlled that may have the same kinds 
of concerns raised.
    And it is the jurisdiction of this committee on the 
security end of it to ask the hard question and pose, I 
believe, prospectively, a legislative response to some of these 
deficiencies that we are seeing as we look at border issues and 
security that is so necessary, along with trucking.
    So, you gentlemen have provided insight, as the first panel 
has.
    And I would like to thank the ranking member.
    Members are in a number of overlapping hearings. So let me 
thank you for your valuable testimony, and let me thank the 
members who were here for their questions.
    The members of the subcommittee may have additional 
questions for the witnesses. We will ask you to respond, as I 
indicated, expeditiously in writing to those questions.
    And, hearing no further business, the subcommittee now 
stands adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]


          Appendix I: C-TPAT Highway Carrier Security Criteria

                              ----------                              

3/13/2006
    The supply chain for highway carriers for C-TPAT purposes is 
defined from point of origin from the yard or where the tractors and 
trailers are stored, through pickup at the manufacturer/supplier/
vendor, through to the point of distribution--and recognizes the 
diverse business models C-TPAT members employ.
    These minimum security criteria are fundamentally designed to be 
the building blocks for highway carriers to institute effective 
security practices designed to optimize supply chain performance to 
mitigate the risk of loss, theft, and contraband smuggling that could 
potentially introduce dangerous elements into the global supply chain.
    On a quarterly basis, or as circumstances dictate such as during 
periods of heightened alert, security breach or incident, Highway 
carriers should routinely assess their degree of vulnerability to risk 
and should prescribe security measures to strengthen or adjust their 
security posture to prevent security breaches and internal 
conspiracies. The determination and scope of criminal elements 
targeting world commerce through internal conspiracies requires 
companies, and in particular, highway carriers to elevate their 
security practices, especially if the highway carrier has the exclusive 
benefit of enrollment in the Free and Secure Trade (FAST) program.
    C-TPAT recognizes the complexity of international supply chains and 
security practices, and endorses the application and implementation of 
security measures based upon risk*. Therefore, the program allows for 
flexibility and the customization of security plans based on the 
member's business model.
    Appropriate security measures, as listed throughout this document, 
must be implemented and maintained.

Business Partner Requirements
    Highway carriers must have written and verifiable processes for the 
screening of business partners, including carrier's agents, sub-
contracted highway carriers, and service providers, as well as 
screening procedures for new customers, beyond financial soundness 
issues to include security indicators, such as business references and 
professional associations.

Security Procedures
        <bullet> Written procedures must exist for screening business 
        partners, which identify specific factors or practices, the 
        presence of which would trigger additional scrutiny by the 
        highway carrier.
        <bullet> For those business partners eligible for C-TPAT 
        certification (importers, ports, terminals, brokers, 
        consolidators, etc.) the highway carrier must have 
        documentation (e.g., C-TPAT certificate, SVI number, etc.) 
        indicating whether these business partners are or are not C-
        TPAT certified. Non-C-TPAT business partners may be subject to 
        additional scrutiny by the highway carrier.
        <bullet> Highway carriers should ensure that contract service 
        providers commit to C-TPAT security recommendations through 
        contractual agreements. For U.S. bound shipments, C-TPAT 
        highway carriers that subcontract transportation services to 
        other highway carriers, must use other C-TPAT approved highway 
        carriers or carriers under direct control of the certified C-
        TPAT carrier through a written contract.
        <bullet> Likewise, current or prospective business partners who 
        have obtained a certification in a supply chain security 
        program being administered by a foreign Customs Administration 
        should be required to indicate their status of participation to 
        the highway carrier.
        <bullet> As highway carriers have the ultimate responsibility 
        for all cargo loaded aboard their trailer or conveyance, they 
        must communicate the importance of supply chain security and 
        maintaining chain of custody as fundamental aspects to any 
        company security policy.

Conveyance Security
    Conveyance (tractor and trailer) integrity procedures must be 
maintained to protect against the introduction of unauthorized 
personnel and material.

Conveyance Inspection Procedures
        <bullet> Using a checklist, drivers should be trained to 
        inspect their conveyances for natural or hidden compartments. 
        Training in conveyance searches should be adopted as part of 
        the company's on-the-job training program.
        <bullet> Conveyance inspections must be systematic and should 
        be completed upon entering and departing from the truck yard 
        and at the last point of loading prior to reaching the U.S. 
        border.
        <bullet> To counter internal conspiracies, supervisory 
        personnel or a security manager, held accountable to senior 
        management for security, should search the conveyance after the 
        driver has conducted a search. These searches should be random, 
        documented, based on risk, and should be conducted at the truck 
        yard and after the truck has been loaded and en route to the 
        U.S. border.
        <bullet> Written procedures must exist which identify specific 
        factors or practices, which may deem a shipment from a certain 
        shipper of greater risk.
        <bullet> The following systematic practices should be 
        considered when conducting training on conveyances. Highway 
        carriers must visually inspect all empty trailers, to include 
        the interior of the trailer, at the truck yard and at the point 
        of loading, if possible. The following inspection process is 
        recommended for all trailers and tractors:
                1. Tractors:
                        <bullet> Bumper/tires/rims
                        <bullet> Doors/tool compartments
                        <bullet> Battery box
                        <bullet> Air breather
                        <bullet> Fuel tanks
                        <bullet> Interior cab compartments/sleeper
                        <bullet> Faring/roof
                 2. Trailors:
                        <bullet> Fifth wheel area--check natural 
                        compartment/skid plate
                        <bullet> Exterior--front/sides
                        <bullet> Rear--bumper/doors
                        <bullet> Front wall
                        <bullet> Left side
                        <bullet> Right side
                        <bullet> Floor
                        <bullet> Ceiling/Roof
                        <bullet> Inside/outside doors
                        <bullet> Outside/Undercarriage

Trailer Security
        <bullet> For all trailers in the highway carrier's custody, 
        trailer integrity must be maintained, to protect against the 
        introduction of unauthorized material and/or persons. Highway 
        carriers must have procedures in place to maintain the 
        integrity of their trailers at all times.
        <bullet> It is recognized that even though a carrier may not 
        ``exercise control'' over the loading of trailers and the 
        contents of the cargo, highway carriers must be vigilant to 
        help ensure that the merchandise is legitimate and that there 
        is no loading of contraband at the loading dock/manufacturing 
        facility. The highway carrier must ensure that while in transit 
        to the border, no loading of contraband has occurred, even in 
        regards to unforeseen vehicle stops **.
        <bullet> Trailers must be stored in a secure area to prevent 
        unauthorized access and/or manipulation. Procedures must be in 
        place for reporting and neutralizing unauthorized entry into 
        trailers, tractors or storage areas.
        <bullet> The carrier must notify U.S. Customs and Border 
        Protection of any structural changes, such as a hidden 
        compartment, discovered in trailers, tractors or other rolling-
        stock equipment that crosses the border.
    Notification should be made immediately to CBP, and in advance of 
the conveyance crossing the border. Notifications can be telephonically 
made to CBP's Anti-Terrorism Contraband Enforcement Team (A-TCET) at 
the port.

Container Security
        <bullet> When transporting a container or trailer for a C-TPAT 
        importer, a high security seal that meets or exceed the current 
        PAS ISO 17712 standards for high security seals must be 
        utilized.

Conveyance Tracking and Monitoring Procedures
        <bullet> Highway Carriers must ensure that conveyance and 
        trailer integrity is maintained while the conveyance is en 
        route transporting cargo to the U.S. border by utilizing a 
        tracking and monitoring activity log or equivalent technology. 
        If driver logs are utilized, they must reflect that trailer 
        integrity was verified.
        <bullet> Predetermined routes should be identified, and 
        procedures should consist of random route checks along with 
        documenting and verifying the length of time between the 
        loading point/trailer pickup, the U.S. border, and the delivery 
        destinations, during peak and non-peak times. Drivers should 
        notify the dispatcher of any route delays due to weather, 
        traffic and/or rerouting.
        <bullet> Highway Carrier management must perform a documented, 
        periodic, and unannounced verification process to ensure the 
        logs are maintained and conveyance tracking and monitoring 
        procedures are being followed and enforced.
        <bullet> During Department of Transportation Inspections (DOT) 
        or other physical inspections on the conveyance as required by 
        state, local or federal law, drivers must report and document 
        any anomalies or unusual structural modifications found on the 
        conveyance. In addition, Highway Carrier management should 
        perform a documented, periodic, and unannounced verification 
        process to ensure the logs are maintained and conveyance 
        tracking and monitoring procedures are being followed and 
        enforced.

Trailer Seals
        <bullet> The sealing of trailers, to include continuous seal 
        integrity, are crucial elements of a secure supply chain, and 
        remains a critical part of a carrier's commitment to C-TPAT. A 
        high security seal must be affixed to all loaded trailers bound 
        for the U.S. All seals must meet or exceed the current PAS ISO 
        17712 standards for high security seals.
        <bullet> Based on risk, a high security barrier bolt seal may 
        be applied to the door handle and/or a cable seal must be 
        applied to the two vertical bars on the trailer doors.
        <bullet> Clearly defined written procedures must stipulate how 
        seals in the highway carrier's possession are to be controlled 
        during transit. These written procedures should be briefed to 
        all drivers and there should be a mechanism to ensure that 
        these procedures are understood and are being followed. These 
        procedures must include:
                <bullet> Verifying that the seal is intact, and if it 
                exhibits evidence of tampering along the route.
                <bullet> Properly documenting the original and second 
                seal numbers.
                <bullet> Verify that the seal number and location of 
                the seal is the same as stated by the shipper on the 
                shipping documents.
                <bullet> If the seal is removed in-transit to the 
                border, even by government officials, a second seal 
                must be placed on the trailer, and the seal change must 
                be documented.
                <bullet> The driver must immediately notify the 
                dispatcher that the seal was broken, by whom; and the 
                number of the second seal that is placed on the 
                trailer.
                <bullet> The carrier must make immediate notification 
                to the shipper, the customs broker and/or the importer 
                of the placement of the second seal.

Less-than Truck Load (LTL)
        <bullet> LTL carriers must use a high security padlock or 
        similarly appropriate locking device when picking up local 
        freight in an international LTL environment. LTL carriers must 
        ensure strict controls to limit the access to keys or 
        combinations that can open these padlocks.
        <bullet> After the freight from the pickup and delivery run is 
        sorted, consolidated and loaded onto a line haul carrier 
        destined to the cross the border into the U.S., the trailer 
        must be sealed with a high security seal which meets or exceeds 
        the current PAS ISO 17712 standard for high security seals.
        <bullet> In LTL or Pickup and Delivery (P&D) operations that do 
        not use consolidation hubs to sort or consolidate freight prior 
        to crossing the U.S. border, the importer and/or highway 
        carrier must use ISO 17712 high security seals for the trailer 
        at each stop, and to cross the border.
        <bullet> Written procedures must be established to record the 
        change in seals, as well as stipulate how the seals are 
        controlled and distributed, and how discrepancies are noted and 
        reported. These written procedures should be maintained at the 
        terminal/local level.
        <bullet> In the LTL and non-LTL environment, procedures should 
        also exist for recognizing and reporting compromised seals and/
        or trailers to U.S. Customs and Border Protection or the 
        appropriate foreign authority.

Physical Access Controls
    Access controls prevent unauthorized entry to trucks, trailers and 
facilities, maintain control of employees and visitors, and protect 
company assets. Access controls must include the positive 
identification of all employees, visitors, service providers, and 
vendors at all points of entry. Employees and service providers should 
only have access to those areas of a facility where they have 
legitimate business.

        <bullet> Employees
                An employee identification system must be in place for 
                positive identification and access control purposes. 
                Employees should only be given access to those secure 
                areas needed for the performance of their duties. 
                Company management or security personnel must 
                adequately control the issuance and removal of 
                employee, visitor and vendor identification badges. 
                Procedures for the issuance, removal and changing of 
                access devices (e.g. keys, key cards, etc.) must be 
                documented.
        <bullet> Visitors/Vendors/Service Providers
                Visitors, vendors, and service providers must present 
                photo identification for documentation purposes upon 
                arrival, and a log must be maintained. All visitors and 
                service providers should visibly display temporary 
                identification.
        <bullet> Challenging and Removing Unauthorized Persons
                Procedures must be in place to identify, challenge and 
                address unauthorized/unidentified persons.

Personnel Security
    Written and verifiable processes must be in place to screen 
prospective employees and to periodically check current employees.
        <bullet> Pre-Employment Verification
                Application information, such as employment history and 
                references must be verified prior to employment.
        <bullet> Background Checks/Investigations
                Consistent with foreign, federal, state, and local 
                regulations, background checks and investigations 
                should be conducted for prospective employees. Once 
                employed, periodic checks and reinvestigations should 
                be performed based on cause, and/or the sensitivity of 
                the employee's position.
        <bullet> Personnel Termination Procedures
                Companies must have procedures in place to remove 
                identification, facility, and system access for 
                terminated employees.

Procedural Security
        Security measures must be in place to ensure the integrity and 
        security of processes relevant to the transportation, handling, 
        and storage of cargo in the supply chain. Procedures must be in 
        place to prevent, detect, or deter unmanifested material and 
        unauthorized personnel from gaining access to the conveyance 
        including concealment in trailers.
        Security procedures should be implemented that restricts access 
        to the conveyance and prevents the lading of contraband while 
        en-route from facilities in international locations to the 
        United States.
        Procedures must be in place to record and immediately report 
        all anomalies regarding truck drivers to U.S. Customs and 
        Border Protection. If local, federal, or state laws and union 
        rules permit, conducting random screening of truck driver 
        luggage and personal effects should occur.
                <bullet> Documentation Processing
                        Procedures must be in place to ensure that all 
                        information used in the clearance of 
                        merchandise/cargo, is legible, complete, 
                        accurate, and protected against the exchange, 
                        loss or introduction of erroneous information. 
                        Measures, such as using a locked filing 
                        cabinet, should also be taken to secure the 
                        storage of unused forms, including manifests, 
                        to prevent unauthorized use of such 
                        documentation
                <bullet> Document Review
                        Personnel should be trained to review manifests 
                        and other documents in order to identify or 
                        recognize suspicious cargo shipments that:
                                <bullet> Originate from or are destined 
                                to unusual locations
                                <bullet> Paid by cash or a certified 
                                check
                                <bullet> Have unusual routing methods
                                <bullet> Exhibit unusual shipping/
                                receiving practices
                                <bullet> Provide vague, generalized or 
                                poor information
                                <bullet> All instances of a suspicious 
                                cargo shipment should be reported 
                                immediately to the nearest U.S. Customs 
                                and Border Protection port-of-entry.
                <bullet> Bill of Lading/Manifesting Procedures
                        Bill of lading information filed with CBP 
                        should show the first foreign location/facility 
                        where the highway carrier takes possession of 
                        the cargo destined for the United States. 
                        Additionally, to help ensure the integrity of 
                        cargo received from abroad, procedures must be 
                        in place to ensure that information received 
                        from business partners is reported accurately 
                        and timely.
                Cargo
                        Cargo must be properly marked and manifested to 
                        include accurate weight and piece count. 
                        Customs and/or other appropriate law 
                        enforcement agencies must be notified if 
                        illegal or suspicious activities are detected--
                        as appropriate.

Physical Security
Procedures must be in place to prevent, detect, or deter unmanifested 
material and unauthorized personnel from gaining access to conveyance, 
including concealment in trailers. Cargo handling and storage 
facilities, trailer yards, etc., must have physical barriers and 
deterrents that guard against unauthorized access. Highway carriers 
should incorporate the following C-TPAT physical security criteria 
throughout their supply chains as applicable.
        <bullet> Fencing
                Perimeter fencing should enclose the entire truck yard 
                or terminal, especially areas where tractors, trailers 
                and other rolling stock are parked or stored. All 
                fencing must be regularly inspected for integrity and 
                damage.
        <bullet> Gates and Gate Houses
                Gates through which all vehicles and/or personnel enter 
                or exit must be manned and/or monitored. The number of 
                gates should be kept to the minimum necessary for 
                proper access and safety.
        <bullet> Parking
                Private passenger vehicles must be prohibited from 
                parking in close proximity to parking and storage areas 
                for tractors, trailers and other rolling stock that 
                crosses the international border.
        <bullet> Building Structure
                Buildings must be constructed of materials that resist 
                unlawful entry. The integrity of structures must be 
                maintained by periodic inspection and repair.
        <bullet> Locking Devices and Key Controls
                All external and internal windows, gates and fences 
                must be secured with locking devices. Management or 
                security personnel must control the issuance of all 
                locks and keys, to include the locks and keys for 
                tractors. When parked in the yard, doors to tractors 
                should be locked and the windows should be closed to 
                prevent unauthorized access.
        <bullet> Lighting
                Adequate lighting must be provided inside and outside 
                the facility including the following areas: entrances 
                and exits, parking or storage areas for tractors, 
                trailers, rolling stock, and fences.
        <bullet> Alarms Systems & Video Surveillance Cameras
                Alarm systems and video surveillance cameras should be 
                utilized to monitor premises and prevent unauthorized 
                access to vessels, cargo handling and storage areas, 
                based on risk.

Security Training and Threat Awareness
    A threat awareness program should be established and maintained by 
security personnel to recognize and foster awareness of the threat 
posed by drug smugglers and terrorists at each point in the supply 
chain. Employees must be made aware of the procedures the highway 
carrier has in place to address a situation and how to report it.
    Additionally, specific training should be offered to assist 
employees in maintaining trailer and tractor integrity, recognizing 
internal conspiracies, and protecting access controls. These programs 
should offer incentives for active employee participation.

Information & Technology Security
        <bullet> Password Protection
                Measures should be taken to protect electronic assets, 
                including advising employees of the need to protect 
                passwords and computer access. Automated systems must 
                use individually assigned accounts that require a 
                periodic change of password. IT security policies, 
                procedures and standards must be in place and provided 
                to employees in the form of training.
        <bullet> Accountability
                A system must be in place to identify the abuse of IT 
                including improper access, tampering or the altering of 
                business data. All system violators must be subject to 
                appropriate disciplinary actions for abuse.
        <bullet> FAST Transponder Controls
                Transponders or any technology provided to the highway 
                carrier by U.S. Customs and Border Protection to 
                utilize the Free and Secure Trade (FAST) program must 
                be protected against misuse, compromise, theft, 
                tampering, altering or duplication***.
                C-TPAT highway carriers must have documented procedures 
                in place to manage the ordering, issuance, activation, 
                and deactivation of FAST transponders. C-TPAT highway 
                carriers are prohibited from requesting FAST 
                transponders for any highway carrier company that is 
                not owned and controlled by the C-TPAT approved highway 
                carrier.
                C-TPAT highway carriers are also prohibited from 
                requesting FAST transponders for any owner-operator not 
                under written contract to provide exclusive 
                transportation services for the C-TPAT highway carrier.
    ----------------------------------------------------
    * Truck Carriers shall have a documented and verifiable process for 
determining risk throughout their supply chains based on their business 
model (i.e., volume, country of origin, routing, C-TPAT membership, 
potential terrorist threat via open source information, having 
inadequate security, past security incidents, etc.).
    ** C-TPAT recognizes the unique situation of the cross-border 
cartage industry in the Laredo, Texas corridor and encourages and 
endorses carriers to work within the supply chain to make a reasonable 
effort to ensure the integrity of trailers, especially during the 
cross-border segment.
    *** Any misuse of FAST technology, to include loaning FAST 
transponders to external carriers will result in suspension or removal 
from the FAST Program. FAST is a benefit based on trust and confidence.


          Appendix II: Mayor Salinas' Law Enforcement History

                              ----------                              

Security Consultant--2002 to Present
Texas Private Investigator Laredo, Texas
Security Consultant in the United States and in the Republic of Mexico.
Conduct Criminal/Civil type Private Investigations. Also Certified
Training Instructor, i.e., Anti-Kidnappings, Interviewing Techniques,
Crisis Management, Crime Scene Matters and Public Relations.

Assistant Legal Attache 1997--2002
Office of the Legal Attache, U.S. Embassy, Mexico City
Violent Crime/Terrorism, Kidnapping and Background Investigations 
Coordinator for FBI Fugitive cases in Mexico, with investigative, 
liaison and training responsibilities throughout Mexico. Special 
emphasis on initiatives in the Mexican states of Guerrero, Hidalgo, 
Michoacan, and Morelos. Case Agent for at least 15 kidnappings 
throughout Mexico. All victims returned home safely.

Senior Resident Agent 1994--1997
FBI Laredo Resident Agency Laredo, Texas
Senior Manager with direct oversight responsibilities for 16 personnel, 
fiscal and personnel matters and a variety of Criminal and Background 
Investigations (BI) in the Laredo, Texas/Mexican Border area. 
Additional responsibilities included Community Outreach and Media 
Relations activities, as well as liaison with senior level U.S. and 
Mexican law enforcement counterparts.

Special Agent 1988--1994
FBI Laredo Resident Agency Laredo, Texas
Seasoned Field Investigator specializing in Fugitive, Kidnappings, BI, 
Violent Crime and Public Corruption Investigations. Additional 
responsibilities included the development and maintenance of liaison 
contacts with both U.S. and Mexican law enforcement counterparts.

Special Agent 1975--1988
FBI Washington Field Office Washington, D.C.
Field Investigator for National Security, BI, and Violent Crime 
Investigations, to include Terrorism Matters. Credited with the 
development of an FBI Hispanic Equal Employment Opportunity Program and 
creator and host of a weekly FBI Spanish language radio program 
broadcast by 177 radio stations in both the U.S. and Mexico. Foreign 
Counterintelligence assignments.

Police Officer 1970--1975
United States Capitol Police Washington, D.C.
Responsibilities included providing physical protection for members of 
the U.S. House of Representatives, U.S. Senate, President, Vice 
President and visiting foreign dignitaries. Special Event/Riot Control 
duties.

Staff Assistant 1968--1970
Hon. Eligio (Kika) de la Garza, US. House of Reps. Washington, D.C.
Responsibilities included general constituent services casework as well 
as constituent correspondence matters. Additional responsibilities 
included representing Congressman de la Garza in meetings and hearings. 
Also credited with the development of a weekly bi-lingual radio program 
for the Congressman, as a means of further reaching out to his 
constituency.

Education/Specialized Skills 1970--1974
University of Maryland: BA, Degree College Park, Maryland
Elkins Institute of Broadcasters & Engineers: FCC Broadcaster's License 
Dallas, Texas
Skills: Hostage Negotiator; FBI Certified Police Training Instructor-
Crisis Management & Kidnapping; Interviewing & Interrogation; Media; 
Public Speaking; U.S.-Mexico Relations; Fluency in Spanish Language; 
Excellent liaison contacts in Mexico; Military Police and Foreign and 
Domestic Terrorism experience. Licensed Texas Private Investigator and 
International Security Consultant and Instructor. Certified in Homeland 
Security-American College of Forensic Examiners Institute

                                 <all>

</pre></body></html>
